<html>
<title> - DEPARTMENT OF ENERGY'S MANAGEMENT OF HEALTH AND SAFETY ISSUES AT ITS GASEOUS DIFFUSION PLANTS IN OAK RIDGE, TENNESSEE, AND PIKETON, OHIO</title>
<body><pre>[Senate Hearing 106-570]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-570
 
 DEPARTMENT OF ENERGY'S MANAGEMENT OF HEALTH AND SAFETY ISSUES AT ITS 
  GASEOUS DIFFUSION PLANTS IN OAK RIDGE, TENNESSEE, AND PIKETON, OHIO

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
64-250                     WASHINGTON : 2000


_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
               William M. Outhier, Investigative Counsel
 Elizabeth ``Libby'' S. Wood, Legislative Director for Senator Thompson
   Catherine C. Walters, Legislative Assistant for Senator Voinovich
             Andrew Richardson, Professional Staff Member,
 Oversight of Government Management, Restructuring and the District of 
                                Columbia
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Jonathan M. Gill, Minority GAO Detailee
                 Darla D. Cassell, Administrative Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Thompson.............................................     1
    Senator Voinovich............................................     2
    Senator Akaka................................................     7
    Senator Lieberman............................................     8

                               WITNESSES
                        Wednesday March 22, 2000

Vikki Hatfield, daughter of former K-25 and Y-12 worker, 
  Kingston, Tennessee............................................     8
Ann H. Orick, former K-25 worker, Knoxville, Tennessee...........    11
Sam Ray, former Portsmouth Gaseous Diffusion Plant worker, 
  Lucasville, Ohio...............................................    15
Jeffery B. Walburn, current guard with restriction, Portsmouth 
  Gaseous Diffusion Plant, Greenup, Kentucky.....................    17
David Michaels, Ph.D., MPH, Assistant Secretary for Environment, 
  Safety and Health, U.S. Department of Energy, Washington, DC...    28
Steven B. Markowitz, M.D., Professor and Director, Center for the 
  Biology of Natural Systems, Queens College, City University of 
  New York, Flushing, New York...................................    30

                     Alphabetical List of Witnesses

Hatfield, Vikki:
    Testimony....................................................     8
    Prepared statement with attachments..........................    48
Markowitz, Steven B., M.D.:
    Testimony....................................................    30
    Prepared statement with attachments..........................    93
Michaels, David, Ph.D.:
    Testimony....................................................    28
    Prepared statement...........................................    86
Orick, Ann H.:
    Testimony....................................................    11
    Prepared statement with attachments..........................    63
Ray, Sam:
    Testimony....................................................    15
    Prepared statement...........................................    72
Walburn, Jeffery B.:
    Testimony....................................................    17
    Prepared statement...........................................    84

                                APPENDIX

Senator Mike DeWine, U.S. Senator from the State of Ohio, 
  prepared statement.............................................    47
Question for the record submitted by Senator Stevens and response 
  from Dr. David Michaels........................................    47

             Additional Testimony Submitted for the Record

Peggy Adkins, Oak Ridge, TN......................................   123
Ruby I. Anderson, Kingston, TN...................................   124
Glenn Bell, Oak Ridge, TN, with attachments......................   128
Joseph P. Carson, P.E., Knoxville, TN............................   191
Richard Coen.....................................................   194
Linda Cox, Clinton, TN...........................................   195
Lynn Cox, Clinton, TN............................................   198
Cheryll A. Dyer, Clinton, TN.....................................   201
Rick A. Dyer, Clinton, TN........................................   205
Sherrie Graham Farver, Oak Ridge, TN, with attachments...........   206
Linda Gass, Powell, TN, with attachments.........................   234
Harry Edwin Gray, Oak Ridge, TN..................................   247
Barbara Hooper, Knoxville, TN....................................   248
Roscoe Hooper, Knoxville, TN.....................................   252
J.D. Hunter, Oliver Springs, TN..................................   253
Elizabeth Hutchins, Nashville, TN................................   255
Rose Marshall, Knoxville, TN.....................................   256
Karen Renee Dyer Massey, Hermitage, TN...........................   258
Janet R. Michel, Knoxville, TN...................................   260
James E. Phelps, Oak Ridge, TN...................................   277
Mary Pinckard, Kingston, TN......................................   284
Mack A. Orick, Knoxville, TN.....................................   287
Edward A. Slavin, Jr., ``DOE's Toxic, Hostile Working Environment 
  Violates Human Rights''........................................   294
Thomas G. and Marjorie Spangler, Knoxville, TN...................   437
Kathryn B. Swain, Harrisburg, NC.................................   438
Roy E. Swatzell..................................................   441
Lloyd Terry, Powell, TN..........................................   442
Sherry Terry, Powell, TN.........................................   443
Whitney Terry, Powell, TN........................................   444
Janine L. Voner, Maryville, TN...................................   445
Pamela Gillis Watson, Oak Ridge, TN..............................   447


 DEPARTMENT OF ENERGY'S MANAGEMENT OF HEALTH AND SAFETY ISSUES AT ITS 
  GASEOUS DIFFUSION PLANTS IN OAK RIDGE, TENNESSEE, AND PIKETON, OHIO

                              ----------                              


                       WEDNESDAY, MARCH 22, 2000

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:17 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Fred 
Thompson, Chairman of the Committee, presiding.
    Present: Senators Thompson, Voinovich, Lieberman, and 
Akaka.

             OPENING STATEMENT OF CHAIRMAN THOMPSON

    Chairman Thompson. The Committee will come to order, 
please. Senator Lieberman, our Ranking Member, has a matter 
that is going to take him until about 10:30, so he will be 
joining us in about 20 minutes. I think Senator Akaka and some 
others will be joining with us shortly. But we are getting 
started a little late, so I want to go ahead and begin. We 
usually like to start these things on time, but we had a vote 
this morning at 10, so we had to go and vote before we started.
    I want to welcome all of those who have come from Oak 
Ridge, Tennessee, and Piketon, Ohio to attend this hearing. We 
certainly appreciate you traveling all this way to be here. We 
know this issue is very important to you. It is very important 
to us and to many others at both sites who could not be here 
with us today, but they are well represented.
    We are here this morning to discuss one of the more 
unseemly aspects of the Cold War: The possibility that the 
Federal Government put workers at its nuclear weapons plants in 
harm's way without the workers' knowledge.
    Now, I have been concerned about this issue for some time, 
since I started hearing from current and former workers in the 
Oak Ridge area about a pattern of unexplained illnesses that 
many believed were related to their service at the Department 
of Energy site.
    In 1997, the Nashville Tennessean had extensive coverage 
and interviews of many people. They had done very impressive 
work that brought this to the attention of not only people in 
Tennessee, but in other parts of the country. So in 1997, I 
asked then-Director of the Centers for Disease Control (CDC) to 
send a team to Oak Ridge to assess the situation and try to 
determine if what we were seeing there was truly unique.
    Unfortunately, in the end, the CDC did not take a broad 
enough look at the situation to really answer all the questions 
that had been raised. That, of course, has been a pattern at 
Oak Ridge and at many of these DOE sites over the years. 
Studies have been done, some on very narrow populations, and 
some on larger ones, some apparently showing some correlations 
and some not able to reach any conclusions at all. The data is 
mixed, some of it is flawed, and we are left with a situation 
that is confusing and from which it has been very difficult to 
draw definite conclusions on every aspect of it.
    Yet, there is a growing realization that there are 
illnesses among current and former DOE workers that logic tells 
us are probably related to their service at these weapons 
sites.
    For example, approximately 150 current and former workers 
at the DOE complex have been diagnosed with Chronic Beryllium 
Disease. Many more have so-called ``beryllium sensitivity,'' 
which often develops into Chronic Beryllium Disease. The only 
way to contract either of these conditions is to be exposed to 
beryllium powder. The only entities that use beryllium in that 
form are the Department of Energy and the Department of 
Defense.
    There are other examples, perhaps less clear-cut, but 
certainly worthy of concern--uranium, plutonium, a variety of 
heavy metals found in people's bodies. Anecdotes about 
hazardous working conditions where people were unprotected both 
against exposures they knew were there and exposures of which 
they were not aware.
    So it is time for the Federal Government to stop 
automatically denying any responsibility and face up to the 
fact that it appears as though it made at least some people 
sick. The question now is: what can we do about it? And how do 
we make sure it never happens again?
    I want to say that I believe the Department of Energy--and 
especially Dr. Michaels, who will be testifying here this 
morning--have taken important steps forward in this regard. 
Rather than continuing to deny any linkage, they have said that 
if the Department made people sick, then we should compensate 
them for it. I look forward to working with the Department and 
with the Oak Ridge community, and with my colleagues in the 
Senate to determine the best and fairest way to accomplish that 
goal.
    In the end, we must remember that these workers were 
helping to defend our Nation and protect our security. They 
were patriotic and proud of the work that they were doing. If 
the Federal Government made mistakes that jeopardized their 
health and safety, then we need to do what we can do to make it 
right. A great country can do nothing less.
    Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. I would like to 
first of all thank you for holding this hearing this morning. 
It is very important to the people in Southern Ohio and your 
own State and I think that this hearing has national 
implications in terms of how this country treats people that 
have been injured as a result of working at nuclear facilities 
that are important to our Nation's national security.
    I would like to thank Sam Ray and Jeff Walburn for your 
courage in coming here today and relaying their personal 
experiences to the Members of this Committee.
    Since 1954, and the start of the Cold War, the Portsmouth 
Gaseous Diffusion Plant in Piketon, Ohio, has served as one of 
a handful of our Nation's processors of high-quality nuclear 
material. The main purpose of the plant at Piketon was to 
enrich uranium for the use in nuclear weapons and propulsion 
systems for our naval vessels. Sometimes people forget about 
the fact that almost all of our major naval vessels are 
propelled by nuclear power.
    Over the years, thousands of dedicated men and women in the 
civilian workforce at Piketon helped keep our military fully 
supplied and our Nation fully prepared to meet any potential 
threat. Their success is measured in part with the end of the 
Cold War and the collapse of the Soviet Union.
    However, their success came at a high price.
    Over the years, the Columbus Dispatch has run a number of 
articles dealing with health and safety incidences among the 
employees at Piketon. The most recent series of articles showed 
that for decades, some workers at Piketon did not know they had 
been exposed to dangerous levels of radioactive material, 
because, until recently, proper safety precautions were rarely 
taken to adequately protect workers' safety. Even when 
precautions were taken, the application of protective standards 
was certainly inconsistent.
    For years, few workers dared openly speak about the loss of 
friends and co-workers to illness, their own diminished health 
and the increased risk that they had placed on their families. 
Many employees fear that exposing such health and safety 
problems would jeopardize the very existence of the plant, and 
the thousands of good-paying jobs it provided the community, 
and there are still employees that are still unwilling to come 
forward.
    To a great extent, those who did complain to management 
were labeled as ``malingerers'' or ``malcontents'' and were 
told that their health complaints were ``unrelated'' or ``all 
in their head.''
    Mr. Chairman, to me, it is unconscionable that people who 
were in management could be so insensitive and uncaring about 
their fellow workers. If we think about the two great 
commandments, love of God, and love of fellow man, certainly 
that second great commandment was broken over and over again at 
that plant in terms of how they treated their fellow workers 
and their fellow man.
    Our witnesses today representing the workers of the 
Portsmouth Gaseous Diffusion Plant have legitimate questions: 
What kind of material was handled? When was it handled? What 
kind of exposure risk existed at the entire facility? Are there 
still existing risks? And, what are the long-term health 
concerns of workers at the facility and for their families?
    The government and its contractors must provide clear facts 
regarding the risks that Piketon's employees have endured, and 
the same thing at Oak Ridge. Once those facts are known, it is 
necessary for the Federal Government to provide whatever health 
care assistance is needed for those workers who have health 
problems as a result of their employment at those facilities.
    Last July, President Clinton appeared to take this 
responsibility seriously when he announced a health initiative 
for DOE workers to help both current and former employees of 
DOE's nuclear facilities. This health initiative included the 
administration's intent to propose legislation compensating 
energy contractors exposed to beryllium and other toxic and 
radioactive materials. The initiative also directed the White 
House's National Economic Council to conduct an interagency 
review to focus on what other illnesses warrant inclusion in 
this program and how this should be accomplished. That report 
is due at the end of this month.
    The administration has already acted on part of this 
initiative, having had legislation introduced by Senator 
Bingaman that would establish a compensation program for 
employees of the Department of Energy who suffer from Chronic 
Beryllium Disease, what we call CBD. Beryllium, which is a 
toxic substance, can cause major health problems if proper 
precautions are not taken while it is being handled.
    Under this bill, S. 1954, CBD sufferers would be entitled 
to $100,000 in compensation. The legislation will provide a 
measure of relief to workers in a handful of States, including 
Ohio, who are afflicted with CBD. In addition to CBD sufferers, 
S. 1954 covers a small group of workers at Oak Ridge, and 
establishes a pilot compensation project for workers whose 
illnesses may have been caused by on-the-job exposure to 
radioactive substances at Paducah.
    S. 1954 also provides for a shift in the burden of proof 
from an employee to the Federal Government in proving an 
illness is job-related. That is a very, very important issue. 
Under current law, an employee at a nuclear facility who 
alleges that his or her illness is related to their job must 
establish a direct link in order for their illnesses to be 
compensated. The problem is, many individuals were not able to 
get coverage under State Workers' Compensation because of the 
latency period of their disease from first exposure to the 
onset of the illness. Too much time went by, so the statute of 
limitations was exceeded.
    As a cosponsor of S. 1954, I think it will help those 
workers who suffer from CBD and ensure that workers who have 
been harmed by the government can get proper and timely 
benefits. However, this legislation does not address the health 
concerns that have been raised by the men and women who work at 
the Piketon, Ohio plant.
    I would like to say, for the record, before this 
legislation is acted upon by the Senate, it must be amended to 
include all injured workers at the Department of Energy nuclear 
facilities across the Nation, including Piketon, right across 
the board, all of them. Let us not do this thing halfway.
    I believe once it is amended, S. 1954 will provide relief 
to thousands of nuclear workers and no longer force them to 
undertake the difficult task of proving their illnesses were 
job-related. However, early indications, and I am very 
concerned about this, are that the NEC's report due at the end 
of next week, will contain a recommendation that will take a 
180-degree turn from where they are today.
    I understand the NEC report will continue to place the 
burden of proof on proving job-related illnesses on the 
workers' shoulders by establishing a process that will consider 
radiation dosimetry records, age, lifestyle, and workplace 
hazards. Mr. Chairman, I am concerned that if the NEC 
recommends this burden of proof standard, many employees will 
find it nearly impossible to prove that their job was 
responsible for their illness.
    At the public hearings in Piketon that I attended last 
October, many workers stated that plant management not only did 
not keep accurate dosimetry records, in some cases, they 
changed the dosimetry records to show lower levels of radiation 
exposure. They changed them. One of our witnesses here this 
morning will testify to that effect. If workers at Piketon 
cannot produce consistent, reliable, and factual data in order 
to meet this burden of proof standard, their ability to receive 
Workers' Compensation benefits will be virtually nonexistent.
    Mr. Chairman, from everything that I have read, the hearing 
I attended, and everything I have ascertained about the 
practices at Piketon, I believe that there was a deliberate 
effort by management to down play and minimize the risk to 
workers that were exposed at that facility.
    Energy Secretary Richardson has already set the precedent 
of shifting the burden of proof to the government by way of the 
administration's bill, S. 1954. It would be unfair to workers 
who have already been injured and neglected by our government 
for the administration to back away from their own legislative 
proposal.
    I hope that the Committee will listen closely to the 
testimony of Mr. Ray and Mr. Walburn and the other witnesses 
that are here today who represent countless others. This place 
could be filled, as it was when I was in Piketon, with people 
that have stories to tell that will break your heart. These 
individuals have only asked that the U.S. Government, the 
government that they spent their lives defending, acknowledge 
that they were made ill in the course of doing their job and 
recognize that the government must take care of them.
    Sadly, because of the government's stonewalling and denial 
of responsibility, the only way any of these employees will 
ever receive proper restitution for what the government has 
done is to file a lawsuit against the Department of Energy or 
their contractors. Mr. Walburn, I understand you have been 
forced to do that.
    Mr. Chairman, these issues have been around for more than 
40 years--40 years. In 1959, there were 6 days of hearings held 
on the topic of employee radiation hazards and Workers' 
Compensation. In 1962, there were 4 days of hearings held on 
radiation Workers' Compensation.
    I believe that the brave men and women of Piketon, Oak 
Ridge, and Paducah--as well as all the others that have served 
our Nation--deserve to know that the Federal Government was 
responsible for causing them illness or harm, and if so, to 
provide them the care they need. The time to act is now. We 
have had enough hearings over the years. Now is the time to do 
something to take care of these people. We owe it to them. They 
served their country and we have an obligation to them. Thank 
you, Mr. Chairman.
    Chairman Thompson. Thank you very much. I appreciate your 
remarks, especially with regard to the legislation. I could not 
agree with you more. I think that the legislation proposed was 
a first step. It talked in terms of likelihood, which is a 
whole lot less than the burden of proof necessary in most 
lawsuits. I think that was on track.
    But the $100,000 lump sum for a limited group of people is 
insufficient. It does not cover medical expenses, for example, 
and that is going to be--it is one thing if you lose a limb or 
something like that. Most of your medical expenses are over 
with. Workers' Compensation will give you permanent, partial, 
or whatever, and pay you out. But in something like this, a 
disease like this, it is your medical expenses that are going 
to be the big item from now on, and so that is going to have to 
be addressed.
    I might point out, too, the reason we are in Washington, 
DC, today instead of in one of these other locations, in 
Piketon or Oak Ridge or other places that we could be, is 
because this is a national problem and it should not be limited 
to the concern of people at these locations and the media in 
these locations. It should be considered a matter of national 
concern.
    The other reason is that while we want to get a limited 
amount of additional information on the record with regard to 
some of these problems, I do not think you have to convince the 
Members of this panel that where there is this much smoke that 
there is some fire, that there is some causality there. As 
Senator Voinovich said, we could fill this building up many 
times over with people, and I do not want you to feel like you 
are getting short shrift because just a handful are testifying 
here today, because we get information from the DOE, we get 
information from people on the ground, we talk to people 
individually. We are monitoring these studies. We are already 
convinced that there is a major problem here.
    What we need to concentrate on now is what we are going to 
do about it. Usually, or ideally, I guess you should say, in 
solving a problem like this, you have exposure on the one hand 
and you have illnesses on the other and you see to what extent 
they go together. The only problem here is that the exposure 
data is very, very faulty. They did not keep adequate records. 
They covered up some information. To this day, they are still 
redacting certain information for national security purposes, 
which is something we are going to have to look at. So it is a 
very, very difficult thing to show causality under these 
circumstances.
    So our challenge is what do we do about it? How do we set 
up a system that is fair, and I think the Department is trying 
to move in that direction, a system that is fair in order to 
make this determination. Everybody that has an illness that 
works in a particular place cannot be compensated simply 
because they have an illness. There has got to be some kind of 
connection. But the burden, as you say, the burden of proof 
should not be on the workers anymore because of this history. 
You cannot deprive people of an opportunity to make their case 
and then say, you have not made your case, which is what has 
happened in some cases.
    There should be some presumptions, and I think the 
Department and the administration is going to come with 
additional legislation, and what we are here today, I think, to 
do in part is to tell the administration, when you come with 
this legislation, there had better be some things in there, 
some basic things in there or it is not going to go and we are 
going to have to do something else. I think there need to be 
some presumptions, shifting of the burdens you have talked 
about, some presumptions, all taking into account the fact of 
this history and the fact that we cannot show causation 
sometimes when perhaps we otherwise could if the records were 
there and people had dealt honestly.
    So that is why we are here. We want to know what the 
government is doing, how far along are they, where are they in 
terms of this analysis. It is a big, big job. It is a 
tremendous job. Nobody has ever tried to do anything like this 
before. There has not been this kind of testing and sampling 
going on in the country with regard to anything like this 
before. There have been some discrete bills passed for 
particular people, black lung disease and things like that in 
the past, but nothing of this magnitude. It is a tremendous 
job. We want to know how far along are they, is Congress doing 
its job. We are not necessarily providing enough funds to move 
fast enough to test all these people. We want to talk about 
that.
    Then we want to talk about a compensation, a fair way to go 
about dealing with a vast number of people and come up with a 
system of fair adjudication and compensation whereby not 
everybody who calls in and says they want a check automatically 
gets one. You have got to be honest about that. But they have a 
fair chance of saying, if you had this kind of exposure or the 
government has kept you or contractors have kept you from 
showing what the exposure is, then the burden is on the 
government. It is just that simple, and you consider it on a 
case-by-case basis.
    All of that is just to provide some background as to why I 
thought it was important to have something here in Washington, 
DC.
    Senator Akaka, did you have any preliminary statement?
    Senator Akaka. Yes, I do.
    Chairman Thompson. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing today on health and safety 
issues at the Department of Energy's gaseous diffusion plants 
at Oak Ridge, Tennessee, and Piketon, Ohio. I will be brief, 
Mr. Chairman.
    It is indeed an honor to receive the testimony of these 
fine people and I appreciate their willingness to appear before 
us today. I am hopeful, like the Chairman, that the recently 
introduced compensation proposal will receive all due 
consideration.
    Mr. Chairman, the issue of government compensation is one 
with which I am familiar. As you may know, under the 1986 
Compact of Free Association entered into between the United 
States and the Government of the Republic of Marshall Islands, 
a $150 million nuclear claims fund was created. The fund is to 
compensate Marshallese victims of radiological exposure from 
U.S. nuclear testing in the islands during the 1940's and 
1950's. The fund is intended to generate a perpetual source of 
income for potential claimants, and I thought I would mention 
this to you and to the folks here.
    Again, Mr. Chairman, I am very pleased to be here today 
with you.
    Chairman Thompson. Thank you very much.
    Our first panel consists of four current and former workers 
at the gaseous diffusion plants in Oak Ridge and Piketon. The 
witnesses are Vikki Hatfield, the daughter of a former K-25 and 
Y-12 worker in Oak Ridge. Thank you for being with us, Ms. 
Hatfield. Ann Orick, former K-25 worker in Oak Ridge, thank you 
for being here. Sam Ray, former worker at the Portsmouth 
Gaseous Diffusion Plant. Thank you, Mr. Ray. And Jeff Walburn, 
a current worker at the Portsmouth Gaseous Diffusion Plant.
    I understand that you have opening statements. Proceed. We 
have a lot of people to hear from here today, but I am not 
going to limit you. Say what you have got to say. Ms. Hatfield, 
would you like to begin?
    Ms. Hatfield. Sure.
    Chairman Thompson. Excuse me. We have just been joined by 
the Ranking Member. Senator Lieberman, would you like to make 
any preliminary comments.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Mr. Chairman, thank you. I would like to 
very briefly welcome the witnesses and thank you and Senator 
Voinovich for the work you are doing here.
    I have real concerns about the information that you brought 
to my attention about the environmental safety and health 
issues at the gaseous diffusion plants and I appreciate the 
interest and the leadership that you both have shown. 
Unfortunately, because of scheduling conflicts, I cannot stay 
here a long time, but I wanted to stop by and express my 
support for what you are doing here and also to spend as much 
time as I could hearing the folks who are before us. I thank 
you very much for your courtesy.
    Chairman Thompson. Thank you very much.
    Senator Voinovich. We also have Congressman Strickland 
here, if we could just----
    Chairman Thompson. Would you like to introduce him?
    Senator Voinovich. I understand that Congressman Strickland 
is here today and I would like to just acknowledge his 
presence. He represents that district in the State of Ohio.
    Chairman Thompson. It is good to have him with us.
    Ms. Hatfield.

 TESTIMONY OF VIKKI HATFIELD,\1\ DAUGHTER OF FORMER K-25 AND Y-
                 12 WORKER, KINGSTON, TENNESSEE

    Ms. Hatfield. Good morning. Mr. Chairman and esteemed 
Members of the Committee, my family and I appreciate being 
given the opportunity to speak to you on a subject that is very 
important to us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hatfield appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    My father, Leon Meade, began working for the Department of 
Energy in 1949. During this time, he worked in all the plants 
in Oak Ridge. The job that we feel has impacted our family the 
most is the one he had from the years of 1969 through 1985. 
During this time, he worked in assembly. He was, in fact, 
assembling the devices that were made at the Y-12 facility, 
which included the handling and cutting of beryllium and 
asbestos.
    In 1985, the company offered a retirement package, which my 
father accepted. My parents and grandparents owned a 150-acre 
farm and my father enjoyed working on it. He retired and had 
four fairly good years, and then his health began to decline.
    The sickness started with a lot of pain with no apparent 
cause. You must understand that for him to even complain was 
unusual. He was never sick. He never took medication. We knew 
something was wrong and we were advised to take him to the Mayo 
Clinic in Jacksonville, Florida. We did this twice, to no 
avail. The doctors did not know what was wrong. They found what 
they thought was evidence of early myeloma, a cancer. They 
could not find it in his body. They knew something was wrong 
but could not figure out what.
    We also made several trips to Vanderbilt Hospital in 
Nashville with the same outcome. Yes, something is very wrong, 
but we do not know what it is. There were repeated trips to 
doctors and hospitals in Knoxville, Tennessee. He was admitted 
several times to the University of Tennessee Hospital as well 
as Baptist Hospital. Each time we made these trips, we always 
braced ourselves for the worst. We knew that something was 
terribly wrong, but we still could not get a diagnosis.
    The years went on and my father grew much worse. He started 
having constant pain in his lower abdomen and in his prostate. 
The pain was constant. He stayed on antibiotics for over a year 
and nothing changed. The pain has grown and spread.
    We finally found the cause of his trouble. After one of our 
many hospital stays that was for what appeared to be pneumonia, 
a specialist came to talk to us about where my father had 
worked and what he had done. He told us that he wanted to test 
my father for beryllium. Although my father understood what he 
was saying, the rest of us were in the dark. We did a little 
research and found that beryllium reacts as a cancer. Without 
someone knowing what he or she are actually looking for, this 
disease can be present without being diagnosed. This explained 
why the apparent cancer was showing up. The test results showed 
beryllium in his lungs, asbestos coating the outside of his 
lungs, as well as heavy metal in his body. These heavy metals 
were partly responsible for the constant pain in his lower 
abdomen.
    During this time, my family's feelings were great. We 
finally knew what was wrong--let's fix it. We found out there 
is no fix. We have watched a man who has been in control turn 
into an invalid. We have had to sell our cattle because he 
can't take care of them. We have watched his weight fall from 
190 pounds when he retired to something less than 120 pounds. 
He is over 6 feet tall, so you can imagine that he is only skin 
and bones.
    We try to think of things that he can or will eat. Nothing 
will stay down. He can no longer go out in public. He is 
embarrassed because he does not know when the vomiting will 
strike. He cannot get his breath; he must have oxygen. He 
cannot bathe himself; he must have help. He cannot walk without 
the aid of a walker. He does not sleep at night because of the 
pain and because he is afraid to die. He takes over 16 pills a 
day. Some days, it is hard to get them to stay down, and other 
days he misses the medication because of the sickness. He does 
not see the benefit and we have to talk about the need to 
continue to try to take the medicine.
    I have not touched on how this affects my family as a 
whole. My mother stays with him 24 hours a day. He does not 
like for her to leave because he is afraid something will 
happen. My brothers and I take turns getting the medication and 
groceries. One of us must always be on standby in case of 
emergency. He knows that he is dying and there is nothing that 
can be done. There is no cure for Bryillious, Asbestosis, or 
the heavy medals in his body. We know that his time is short, 
but it is his quality of life that we are concerned about.
    In January, he was sick and in the hospital. When he came 
home and they needed to give him medication, this medication 
cost $500 a day. This was not possible, and the insurance would 
not cover it. We need help with this. His medical expenses are 
rising daily. His insurance questions his stays in the hospital 
because they think the Department of Energy should be paying 
for his stays due to his diagnosis. Every time we go to a 
doctor or hospital, we have to go through a mountain of 
paperwork about who is responsible.
    In the first few months of 2000, he has already had several 
hundred of dollars in out-of-pocket prescriptions. We can 
assume that by the end of the year, if we are fortunate enough 
to have him that long, and if things stay the same and he gets 
no worse, the cost will be in the thousands of out-of-pocket 
costs. If things worsen, as we suspect they will, the costs 
could easily go into the tens of thousands of dollars.
    A decision by his insurance company has now been made that 
limits pain medications to cancer patients. He is not diagnosed 
with a cancer, so therefore his pain medication is limited. I 
do not believe that my father or any former employees who are 
in the position he is in can make it through the day without 
some help.
    The bottom line is really very simple. My father did his 
job for over 31 years. He did it because that is what the 
Department of Energy asked of him. He was not told that he was 
in danger and that he was risking his life each day he was 
there. I believe there was evidence that goes back as far as 
1952 that proved the Department had knowledge of the beryllium 
and how it could affect your health.
    In December when I attended my first meeting with Dr. 
Michaels and his staff, I was surprised at the number of people 
who came forward to speak. I feel sorry for the people who have 
just been diagnosed. If they are in their late 30's or even 
their 40's, they will have a long and expensive road to travel.
    We have found the Department of Energy not to be very 
helpful. They have asked my father to go to Nevada for 
examination, as well as New Jersey. We have to explain to them 
that he can hardly walk through the house. How can he be 
expected to make a trip like that? As recently as a month ago, 
we did get him to Oak Ridge because the Department wanted to 
run more tests. We filled out more paperwork. Every time they 
want to run more tests, we go through the same paperwork. It is 
all in his file and it takes a lot of effort to get this 
paperwork filled out. I realize it is important, but when it is 
in the file, they would not be asking him to come forward and 
take these tests if they did not realize it was already there.
    My father has been retired for 14 years and 10 of these 
years he has been sick. During this time, there has not been an 
increase in his retirement benefits, his insurance coverage, 
nor has anything been offered to help make this devastating 
illness easier for my mother or the rest of my family. How can 
we be expected to give him the quality of life that he 
deserves?
    I would like to leave you with one last thought. You are in 
the room with your father, a man who never cries, and you watch 
as tears run down his face and he says, ``All I really want is 
to stop hurting and to have my health back, is that to much to 
ask? '' We know that there is no answer to this. There is no 
way we can stop or prolong what he is going through. We feel 
that it is time for the country as a whole to come forward and 
take responsibility. I do not know that we can do it in my 
father's time. His time is very short. But it is time to step 
up to the table and say, look, you did your job. You worked 
hard at it. What can we do to help you at this?
    The expenses, the medicine, just having help within the 
family, having someone that comes and stays and gives my mom 
some relief, that would be wonderful, but we need help and it 
is things that the insurance companies will not help us with. I 
do not believe that it is fair that my family has to take what 
they have set aside for their retirement to take care of these 
problems. I mean, my dad is going to be gone and my mom is 
still going to have to have something to live on. At the rate 
we are going, she is not going to have it. It is not going to 
be there. We are going to wind up selling our farm just to be 
able to take care of these expenses, and that is not right. 
That is not the fair way for the government to react or for the 
government to do business. I thank you for your time.
    Chairman Thompson. Thank you very much, Ms. Hatfield, very 
powerful. Mrs. Orick.

 TESTIMONY OF ANN H. ORICK,\1\ FORMER K-25 WORKER, KNOXVILLE, 
                           TENNESSEE

    Mrs. Orick. Good morning, and thank you so much for the 
opportunity to be here today. On behalf of the K-25 workers, we 
have worked this issue now for about 5 years, when we first 
addressed the medical department and they told us we could not 
talk about this because it was a sensitive issue and they would 
not put the things in our medical files that we were finding in 
our hair and in our blood and in our urine, like the cyanides 
and the uraniums and the beryllium. They did not want that in 
there, but they wanted to know every time you clocked out to go 
to the doctor for a tonsillectomy or have your finger taped up 
where you cut it. They put all that in, but they denied the 
things that pertained to what was actually happening to our 
bodies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mrs. Orick appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    I can relate to what this lady has said because my father 
worked at Y-12 and I remember, growing up as a little girl, 
watching him die. I would stand and look over the big 4-poster 
bed and look at him and he would suffer and he could not 
breathe. At 47 years old, he was dead, and I never did 
understand what happened to my daddy. I never knew what he did. 
It was always so hush-hush. You did not talk about it. But I 
knew he worked hard and I knew things worried him. He worried a 
lot.
    My husband went to work at the K-25 site after being a 
Vietnam War veteran. He proudly served his country there and 
came home and went to work at K-25, where he worked as a 
maintenance mechanic out there for almost 28 years. He was the 
first person diagnosed at the K-25 site with chronic beryllium 
disease, and, of course, immediately we were informed that he 
did not get it there because they did not have any. It is funny 
they did not have the cyanide, either, that was showing in our 
blood. They did not have anything that we were trying to talk 
to them about that was hurting us. We do not have any of that 
here. You could not possibly get that here.
    And so this past 5 years has been a real struggle for us. 
We have worked hard to get this issue brought forth and we have 
suffered and our health has gone downhill.
    As for me, I would just like to tell you just a little bit 
of some of the things that have been found, and I would like to 
do this because, Senator Thompson, you related to the fact of 
what we can cover and what we cannot. It is unfortunate that 
most of the things that are wrong with my body may not have 
scientific and medical evidence, where some gentleman in the 
1800's has studied and wrote a book and proved that uranium 
caused this or cyanide caused that, so I may not have that 
solid medical proof, but I worked in the very trenches of that 
site in the uranium, cleaning it up, in the UF-6, transferring 
it over, in the nickel, moving it from one vault to another, 
and all the hundreds of chemicals and thousands of compounds 
that are out there, and we do not even know when they are mixed 
together in the body, what they do. Nobody certainly has had 
time to look at that.
    But some of the things that I suffer which relate to all of 
these people back here from K-25 include things like peripheral 
vision loss. We are losing our peripheral vision. They do not 
know why, because it is not a specific pattern which relates to 
a proven eye disease, but yet our eyes are blackening.
    We all have chronic fatigue. It was an effort for me just 
to get here. Even from yesterday morning, leaving, and just one 
plane ride, I got to Detroit and I was so sick that we had to 
get a cart to get me to the other plane. I have no energy. I am 
shaky. I tremble. I have to use a cane to get around.
    I do not smell things anymore. I have no smell. We cannot 
remember things. We cannot concentrate. We have severe bone and 
joint pain, and my bones are so cold that I just wrap blankets 
around me all the time and sit in a chair because I am trying 
to get warm.
    Sway balance, all of us have lost our balance. All of us 
pitch. We have no control of our balance whatsoever. We suffer 
severe migraine headaches, sleep disturbances. None of us sleep 
over 3 or 4 hours a night. We hurt. Our bodies hurt. You cannot 
sleep when you are in pain.
    We have heart rate problems. My heart rate at the plant 
when I had the high thiocyanate readings were up to 180 beats a 
minute, 180 beats a minute, and still, all of us suffer with a 
rise in rapid heart rate with no really explanation for them 
there.
    Upper airway disturbances, we cannot get our breath. When 
the pulmonologist went down in my lungs, he would just touch 
them and they just break and bleed and they do not know why 
they are so fragile, but they are, and that is what they find 
in these beryllium workers.
    Tremors, right-sided weakness, elevated nickel levels in my 
blood, and I have been gone from that plant for 5 years, but I 
still have elevated nickel and aluminum readings in my blood. 
Gentlemen, I do not have nickel at home. There is no way I got 
that at home.
    Severe skin rashes--when I left there, I was so broken out 
with big, huge eruptions on my skin, I looked hideous. I looked 
like a young teenager with an acne problem, and they would 
break open and bleed. And they tried all kinds of treatments 
and they could not heal them up.
    Gastrointestinal diseases, I had them make this picture \1\ 
for you because I want you to see that this little pinhole 
right here is all that is left in my stomach. It should be this 
size, where they first go in. My stomach cavity has grown 
together. This is the second time in 2 years this has happened. 
I already had one major surgery where they cut out a big 
portion and tried to make a hole for my food. And now they 
think they are going to take over half my stomach and half my 
intestines out, which will leave me strictly on liquids which 
are going to pour directly through my body. I will never be 
able to leave the house and do anything anymore, if I get 
through the surgery, and with all the health problems, it is 
very, very severe for me to face. If I do not have the surgery, 
in February I was told I would live 3 to 6 months, so 6 weeks 
of that time has gone. I have chosen not to do it.
---------------------------------------------------------------------------
    \1\ Pictures referred to appear in the Appendix on page 71.
---------------------------------------------------------------------------
    I have come here today hoping that I can relay some of 
these things to you. I cannot keep having major surgeries. They 
are not even covered. Just yesterday before I left home, I 
faxed $9,000 of unpaid medical bills down to the Lockheed 
Martin benefit plans asking them, please help us with this. 
Some of this should be covered in some way.
    We all have had shut down gallbladders. We all have nausea 
and vomiting. I have nausea most of the time and am on 
medication just to sit here this morning because I am so 
deathly sick. We have colon problems.
    We all have been diagnosed with depression. Of course, that 
is the main thing with the workplace. Oh, you are just 
depressed. You have a mental problem. Just get yourself a 
psychiatrist and you are going to be just fine. Well, 
unfortunately, I have not found a psychiatrist yet that can fix 
the things that are wrong with me.
    We have all kinds of other things that I could talk about 
here, but I am just trying to give you a brief overlay, and 
this is not just me. This is the bodies of these people that 
sit here today. And I am not sticking to what I wrote down. I 
am sorry, but I am just trying to talk to you from my heart. I 
want you to understand this situation.
    We need help. A $100,000 bill is not going to help us, and 
do you know why? What happens to us in Oak Ridge is the way the 
disability is set up, the Lockheed Martin Met Life disability 
plan takes that entire $100,000 from us, leaving us with 
nothing. They recuperate their losses, they say. Well, that is 
fine. When are we going to recuperate ours? The little bit of a 
disability check that we are allowed, we still have to pay our 
insurance and that costs me $150 a month. We still have to buy 
our medicines, and we never, my husband and I never buy our 
medications. We cannot afford it, $40, $50 a bottle after 
insurance pays, and I am on about eight things and he is on 
three or four. We do not have that kind of money. That takes 
more than my disability check and part of his.
    We lost our home. We had to sell it. We could not do the 
maintenance, we were not able. Plus, we did not have the funds 
to keep it anymore. So we do not even have a home. We have 
worked all these years thinking that we would retire and 
someday maybe have a little bit of a life, and here we are 
looking at making funeral arrangements.
    You know, I wanted all my life to be an organ donator. I 
think that is so important. But I, unfortunately, do not have 
anything in my body that is not so contaminated with uranium 
and plutonium and all these other things that I can even give 
anything to anybody else to help them live.
    So this right here today is the only thing I can give to 
help these other people live, and it is not just Oak Ridge and 
it is not just Ohio, it is the country. And it is really sad, 
because if you had asked us to come down there and work for 
this country's national security and you had said, now Ann, I 
am going to put you in here in this highly enriched uranium and 
it may damage your health or it may take your life but we need 
you in here because otherwise the freedom of this country is 
completely gone, we could be invaded, anything could happen, 
and unless you do this job, everything we have worked for all 
these hundreds of years when we established this country is 
just gone, I would have went. They would have went, if they had 
just told us.
    And they knew. They knew from the early 1940's what they 
had. We have documentation from the DOE's own reading rooms 
that show they knew what they had, and to keep worker morale 
up, they just moved you around in a job. You did not talk. You 
did not discuss what you did.
    But when you place workers in areas and you know they are 
contaminated, and even to this day, the vent systems in the 
newest buildings, even outside the security fence, when you 
swipe them and you run them, they have got nickel and cobalt 
and strontium in the vent systems in the clean buildings. What 
do you think we got?
    You have got to realize that a bill limited to certain 
diseases or certain scientific proof is not going to work for 
somebody like me. I worked hard for all of you to live here in 
this country, free and secure from whatever. I would do it 
again. But I would have expected that this country be truthful 
and tell me what I am facing. They did not have to disclose the 
classified issues. They could have just said, this may make you 
sick but we will try to help you. We will try to treat you. We 
will get you to a doctor. Unfortunately, we do not have doctors 
in that area that have the expertise to even try to work with 
us, and if they do, they are run off like Dr. Reed was. They 
are run off. They are cut off the medical plan.
    So it is very difficult for us to go anywhere and we are 
not even treatable. But maybe we could offer a little bit of 
help for the medicines or for whatever that we cannot afford to 
go do, and maybe we could offer a little bit of help for the 
future for those workers that may still be in that, that we 
just may go ahead and tell them and right now get them 
somewhere and get them some help where they will not be in the 
situation I am in, with 3 to 6 months to live.
    I have not said anything I have come here to say, but I 
hope you will read my testimony.
    Chairman Thompson. Oh, absolutely.
    Mrs. Orick. I tried to be very, very distinct with it and I 
appreciate it. Thank you.
    Chairman Thompson. Absolutely. Thank you. You are a very 
eloquent spokesman for an awful lot of people, and you, too, 
Ms. Hatfield.
    Chairman Thompson. Mr. Ray.

 TESTIMONY OF SAM RAY,\1\ FORMER PORTSMOUTH GASEOUS DIFFUSION 
                 PLANT WORKER, LUCASVILLE, OHIO

    Mr. Ray. Thank you very much. Good morning, Mr. Chairman 
and Members of the Committee. Hopefully, you can understand me. 
I am Sam Ray, a former uranium enrichment worker at the 
Portsmouth Gaseous Diffusion Plant.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ray appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    I was hired in 1954 and worked as a production operator and 
instrument mechanic. In May 1994, I was diagnosed with a rare 
type of bone cancer, chondrosarcoma. As a result, I had to have 
my larynx removed. At that point, I had no option but to take a 
disability retirement. My understanding is that there are two 
things that cause my type of cancer. One is Paget's disease, 
which I did not have, and the other is radiation exposure, 
which I did have. It is well documented that certain uranium 
compounds are bone seekers. I might add, I have never smoked a 
day in my life. They are two different types of cancers.
    But I am not here today to talk about myself. I am here to 
describe how, with the benefit of Cold War secrecy, the 
government and its contractors made decisions that traded off 
our well-being for the convenience of the production and I am 
here to ask you for your help in passing legislation to help 
remedy some of these wrongs. And I just might add, basically, 
the two ladies who are sitting here, this would be beneficial 
to them if we could get some of this legislation passed.
    From 1961 to 1978, Portsmouth operated a facility that 
converted highly enriched uranium, HEU, oxides into feed 
material. Much of this oxide, 87 percent enriched, was shipped 
in from the Idaho chemical processing plant. A good friend of 
mine, Robert Elkins, worked in the oxide plant from 1962 to 
1965. By 1965, he was placed on permanent restriction due to 
high internal body counts of radiation. He had enriched 
uranium, technetium, neptunium, potassium, and cesium in his 
body. When he retired in 1985, 20 years later, he was still on 
permanent restriction. In the 15 years since retirement, the 
plant management has never contacted him to check on his health 
or suggest that he receive post-retirement monitoring.
    However, Mr. Elkins was contacted by an individual from 
Hanford, Washington, presumably the transuranium registry, who 
wanted to pay $500 for his body so the government could study 
what happened to the radiation in his body after he passed 
away. His wife would receive the $500 upon his death. They both 
declined the offer. It would appear the government is more 
interested in what happens to Mr. Elkins after he is dead than 
what happens to him while he is still alive. Other workers in 
this area were placed on work restriction due to radiation 
exposures, and unfortunately, many of them have passed away.
    DOE knew this facility was unsafe. A 1985 DOE report 
states, ``the oxide conversion facility was not able to 
maintain adequate containment of the radioactive materials 
during operating periods. As such, the decision was made in the 
1977 time frame to shut down that facility pending 
modifications to provide adequate containment measures. These 
modifications were never funded and the facility has not 
operated since.''
    The Portsmouth plant's radiation dosimetry programs have 
been woefully inadequate. For example, NIOSH discovered that 
between 1954 and 1992, the site never measured for neutron 
exposures. Uranium deposits in the cascade causes neutron 
emissions.
    When I was hired in 1954, process operators were not 
allowed to wear coveralls or safety shoes. Your clothing became 
contaminated. We took this contamination home with us on our 
clothing and shoes. Sometime in the 1960's, coveralls became 
operational for process operators. However, it was not until 
the 1990's when contamination controls were implemented that 
they became mandatory. In reality, they should have always been 
mandatory.
    Until the mid-1970's, our respirator protection consisted 
of World War II Army assault masks. It was years later that we 
learned that these were not adequate to block the 
radionucleides or toxic chemicals.
    Due to the lack of a contamination control program, certain 
buildings were becoming more contaminated. Equipment would 
malfunction and process gases, UF-6, would leak to the 
atmosphere. On one occasion, it was so bad that it looked like 
a fog moving up through the building. The building is about a 
half-mile long. After one major release in a withdrawal area, 
there were green icicles with crystallized uranium hexafluoride 
hanging from the ceiling and I beams.
    While management assured workers there was no hazard at the 
uranium enrichment facility in Portsmouth, it warned 
supervisors in a 1962 memo, ``We do not expect nor desire that 
the philosophy will be openly discussed with bargaining unit 
employees. Calculations of contamination indices should be 
handled by the general foreman and keep as supervisional 
information in deciding the need for decontamination.''
    Heavy metals were a major hazard at Portsmouth. Between 
1981 and 1990, decontamination workers were exposed to mercury 
up to 175 times the OSHA threshold limit.
    Correctly, I am a retiree representative for the Worker 
Health Protection Program, which is funded under Section 3162 
through DOE funding. It gives former workers a one-time 
complete physical. When I talk to former workers and retirees, 
I find out how little they knew about what they were exposed 
to. I get calls from widows whose husbands have passed away 
with cancers. They want to know if their spouses' exposure in 
the workplace caused their illness.
    I would like to summarize by offering several 
recommendations for Congress to consider. No. 1, worker 
compensation legislation must cover radiation-exposed workers 
at all DOE sites, not just Paducah. The administration's bill 
does not go far enough.
    No. 2, worker compensation legislation, to be of any real 
value, must shift the burden of proof for causation to the 
government. The government's failure to properly monitor for 
radiation and toxic hazards eliminates the evidence to prove 
causation. This imposes an insurmountable burden of proof on 
the victim.
    No. 3, the current medical training program funded under 
Section 3162 should go even further, with lifetime annual 
medical monitoring.
    No. 4, we need fully-paid medical insurance for displaced 
or retired workers. A medigap supplement should be fully funded 
by the government for retired nuclear workers.
    No. 5, workers at Portsmouth and Paducah face a unique 
problem with retiree health care benefits. Since USEC was 
privatized, it assumed responsibility for the Lockheed Martin 
retiree health care benefits program. However, these benefits 
could be in jeopardy if USEC, as many predict, will fall into 
bankruptcy or liquidate in several years. Unlike pensions, 
retiree health care benefits are not guaranteed under ERISA. We 
need legislation to guarantee that these health benefits will 
be delivered as intended.
    I would like to thank the Committee for the opportunity to 
express the problems that the workers at nuclear facilities are 
having. Thank you.
    Chairman Thompson. Thank you very much, Mr. Ray. I 
appreciate it. Mr. Walburn.

    TESTIMONY OF JEFFERY B. WALBURN,\1\ CURRENT GUARD WITH 
   RESTRICTION, PORTSMOUTH GASEOUS DIFFUSION PLANT, GREENUP, 
                            KENTUCKY

    Mr. Walburn. Mr. Chairman, and Senators, I would like to 
say that I am glad to be here. John Game, my union 
representative that sits behind me, had to represent me all 
week as the company that I worked for, the U.S. Enrichment 
Corporation, was trying to lay me off under ADA concerns 
because they no longer wanted to accommodate my disability. 
When the light of the Senate shown on them, they put their 
teeth away. They do not bite so hard in the light, and I am 
here. Through the work of John Game, I am here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walburn appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    Mr. Chairman, honorable Senators, thank you for allowing me 
to testify today. My name is Jeffrey Walburn. I live in 
Greenup, Kentucky. I have worked at the plant for 23 years 
plus. My job title is Security Inspector. I also served as a 
councilman from 1987 to 1995 in the City of Portsmouth, Ohio, 
and I was vice mayor there for 2 years.
    I was injured in an industrial accident in the 326 process 
building on July 26, 1994, which has left me working but 
restricted. I have permanent injuries to my upper airways and 
lungs, a condition known as RADS. I feel I did not get proper 
medical treatment at that time at their clinic, and I had a 
hospital stay that was very--it stays with me. I will never get 
it out of my mind. I believe that there have been efforts at 
the Portsmouth plant to criminally cover up the details of this 
accident.
    Hon. Senators, it is not my own injury that I come here to 
testify about today. I am here to report the details of illegal 
actions taken by the subcontractor, Lockheed Martin Utility 
Systems, surrounding the event. There is a discovery of facts 
stemming from the independent and long-running investigation by 
myself, through the efforts of John Game and others in UPGWA, 
Herman Potter in the Oil and Chemical Workers Union, now known 
as PACE, and many others, along with the NIOSH.
    This investigation is supported heavily by documentation as 
well as the testimony of two whistleblowers, which we believe 
reveals criminal activity. I believe it extends into the 
previous history of the plant under Goodyear Atomic 
Corporation, and I also believe that the knowledge of these 
actions are also known by the U.S. Enrichment Corporation 
management, as well as the DOE.
    Our investigation of my injury has revealed the following. 
Altering of documents--I have two medical diagnoses, one 
original, and one altered.
    Suppressed documentation--there is a 41-page internal 
report, POEF 150-96-0088, dated February 17, 1996, from Don 
Butler, Security Investigator, Lockheed Martin Utility Systems, 
to Dan Hupp, Security Manager, reference management of 
dosimetry programs. It is my understanding that the Committee 
has received about 10 of those pages that came to us. The 
unions, both unions have asked repeatedly in written form and 
been denied this report. In the depositions of the individuals 
who were highlighted in this report, they did testify in 
Federal deposition that because I was going to file a lawsuit, 
that my dosimetry was ordered to be changed to zero. Then, 
because someone got cold feet, they came in a back door in the 
dosimetry program that no one knows how they get in, but they 
can come and go at will and make your dosimetry a tailor-made 
reading to read what they want it to read.
    Destruction of government documents. The dosimetry records 
of Jeffrey Walburn were ordered changed to zero because he was 
going to file a lawsuit.
    Falsifying of government documents, lying to government 
investigators. The day myself and Paul Walton, this individual 
will never be back to work. He was not treated. I spent an 11-
day hospital stay. My wife happens to be a nurse and I was 
lucky. I was also lucky that a new pulmonologist came into 
town, Dr. Ellie Saab, who is a pulmonary specialist. The plant 
would not divulge what we were exposed to. They still stand and 
have testified in Federal deposition in December 1994 that we 
were only exposed to low-level fluorine, and I am here to tell 
you today that my wife, as she held me in her arms, witnessed 
my lung linings bubble out my nose and mouth. My hair fell out. 
I had intestinal insult. I beg to differ with them.
    Illegal entry into a secure system of records for the 
express purpose to present a false dosimetry history at the 
Portsmouth site. There is a back door, or was. It may have been 
closed. But the historic fact is, there was a back door in our 
dosimetry. The records are not accurate or believable. NIOSH's 
investigation of dosimetry practices at Portsmouth, they threw 
our dosimetry into an administrative bucket, assigned to no 
one. They averaged our dose. Say we were in this building and 
this table was a building and it was a quarter-mile long and an 
eighth of a mile wide, and where I worked here was very hot, 
and where Ms. Hatfield and Mrs. Orick worked was not hot, a 
quarter of a mile away, and I come up with a high reading. They 
said, oh, my, we cannot have that. Let us average their reading 
and assign that to Mr. Walburn, and that is the reading I got. 
And I am here to tell you today that the reading I got during 
my injury that they zeroed was an average, and then it was 
changed back through a back door, no one knows how, to an 
average again. I do not know what my reading is, nor do they or 
anyone else.
    They destroyed badges. They hung a badge on the wall with a 
bar code that they would bar code and assign to an individual. 
If they did not like the readings, give them another reading. 
Assign part of that reading to one person, another person, 
spread it out. Let us not have a high reading.
    Failure to check for neutron radiation--I think that has 
been explained here by Mr. Ray. Evidence of high doses not 
reported--there is a Mr. Rensky with the NIOSH that has a 
report that should be gotten, and the fact that they were 
reluctant to divulge the fact that this was going on because it 
is a problem.
    I do not know how many reports I have read in the DOE 
system of investigation that state, there is no evidence of 
injury because the records do not reflect. Ladies and 
gentlemen, I am here today to report that dosimetry records at 
Portsmouth have been altered. Sick workers, but no reason. Dead 
workers, but no cause. How can this be? I believe there has 
been deliberate action on the part of the plant subcontractors 
to defraud under DOE oversight. There has been an absence of 
checks and balances, and as I said at Piketon, you got a meter 
to check for neptunium, plutonium. Tyranny is something that is 
hard to define or see, but it must be stopped.
    The DOE wants to offer settlement which makes the worker 
prove how they were hurt but grants themself and the 
subcontractors that work for them immunity from prosecution. I 
ask you, what did DOE know and when did they know it? Health 
screenings are a great preventative medicine, but they are not 
compensation.
    I want to know if the privatization agreement was properly 
struck under the Federal certificate of compliance. Were the 
workers at Portsmouth and Paducah set adrift in a leaky boat 
with sick and injured workers by the DOE? Were we indentured to 
a private group, only to be scuttled later with no survivors 
and no reparations coming to our widows because the record did 
not reflect? If those records were falsified, they cannot 
reflect.
    I am here today to call for a full and independent third 
party investigation of the DOE and their relationship with 
their subcontractors. DOE investigating themselves is like 
asking the fox if all the chickens are well in the henhouse.
    We, as a group, have been fought at every turn concerning 
Workers' Compensation. We have been made to appear as 
malingerers or just plain whiners. We are neither. We are Cold 
War veterans and we suffer from nuclear workers' syndrome. We 
deserve compensation.
    So you say, what have we done to bring this to light? We 
have reported timely, dutifully, and often. I myself have 
reported to the DOE's Inspector General twice. DOE turned the 
matter over to USEC to investigate their own subcontractor. 
They found the evidence of the dosimetry falsification and back 
door and either did not know what to do or did nothing, but 
they did nothing. I have notified the NRC Region 3. Now they 
are the regulators. Now they know what DOE knows.
    The Department of Labor is doing currently a glow curve 
check, and I am not a technician so I cannot explain that. You 
will have to ask the technical groups. I have contacted the 
NIOSH. I contacted the FBI. They all point at DOE.
    I notified Congressman Strickland from my hospital bed when 
I was injured. I had to con my mother-in-law to plug the phone 
in because my wife was scared. She did not want anyone to know, 
and she said, ``My God, do not do that, Jeff.'' I said, he is a 
friend, he is a Methodist preacher, he is a psychologist, and 
he is a Congressman of the United States, and he has stayed 
with me on this and he has been out of term and came back in. 
He was in the 103rd Congress and he is still with me on this, 
and I appreciate that and I want to thank him here today.
    I want to thank Senators DeWine and Voinovich for coming to 
Piketon. They heard some of the most gut-wrenching testimony. 
It did not sound like something that would come from this 
country or that would be done against the workers of this 
country, that defended this country. They were informed at the 
Piketon hearings.
    I gave a hanging file box of evidence backing the 
information I am providing today to Congressman Strickland. I 
sent a duplicate copy to Secretary Richardson's personal staff 
outlining the very wrongs I have presented and have informed 
the EH-10 Executive staff of the details, intimately of its 
contents. I am told that the DOE has lost their copy.
    Given the gravity of the information, possibly criminal, 
that was in that box, I cannot understand why they have not 
asked for a replacement of this information. John Game, my 
representative, offered. He said, we will give you a copy. Call 
Congressman Strickland. He would be glad to share that 
information. In fact, he would like to have some answers about 
that information.
    There is something wrong at the Portsmouth plant, something 
which may very well point to the cause throughout the industry 
of why workers are sick and dead. I hope you will find out, 
Senators. Thank you for allowing me to speak.
    Chairman Thompson. Thank you, Mr. Walburn.
    I do not know when I have heard a more impressive and 
disturbing group of witnesses. I thank all of you for being 
here today. I know this is something that you have been living 
with for a long time, and if I were in your shoes, I would be 
wondering what has taken so long. This is not a new matter. The 
evidence has been there for a long time that we have got a 
severe problem. Sometimes it takes a long time, unfortunately, 
but I really do believe that we are at a stage now where we are 
beginning to get the right kind of attention and the right kind 
of focus and moving in the right direction.
    There are people of good will in all branches of government 
and there are people in all branches of government not of good 
will. You cannot have a blanket indictment or a blanket 
exoneration of anybody. It is our job to do the painstaking 
work of figuring out which is which, and we are committed to 
that.
    I want a little bit more detail with regard to some of your 
testimony. Ms. Hatfield, your father's situation, indeed, 
tragic. You have heard him talk about it, I am sure, many, many 
times. I would like to get from you and from Mrs. Orick, also, 
what you can tell us about the atmosphere during those years. 
What period of time did your father work at the plant?
    Ms. Hatfield. He started in 1949 and he retired in 1985.
    Chairman Thompson. Mrs. Orick, what was your time of 
service?
    Mrs. Orick. From 1984 until 1996.
    Chairman Thompson. I would like to get the comparison, 
really, between the two periods of time. Was your father 
required to wear protective equipment? Was there discussion 
about safety issues with regard to the people who were running 
it at that time? Was your father mindful of those things 
himself? What was the atmosphere like during that period of 
time?
    Ms. Hatfield. My understanding is, and Daddy and I have 
talked about this, and he was not told that what he was doing 
was harmful. They did just, back in my recollection, when I 
remember what he would and would not talk about, I mean, it 
just was not talked about. And even now, he still adheres to 
that. You know, there are things you just do not talk about. 
But he was never told that he was in jeopardy in any way. They 
did not tell him----
    Chairman Thompson. That was back during part of the time 
when they had the place just fenced off.
    Ms. Hatfield. Yes.
    Chairman Thompson. One of my best friends was Senator 
Baker's person in Tennessee, Bill Hamby from Oak Ridge. He used 
to talk about that, growing up there and his father and so 
forth. A lot of people do not understand what it was like back 
in the 1940's.
    Ms. Hatfield. It was very hard, and they did not--they took 
showers, of course, but they did also tell us at a later date 
that they could have even brought it home and passed it on to 
other members in the family, just by not getting everything 
cleaned up. But they did later, not when he first started, but 
later, right before his retirement, they did have respirators 
and that type of thing, but not at first. They did not have it 
at first.
    Chairman Thompson. I think it is probably fair to say that 
even the government back in the beginning of all this did not 
fully appreciate or have the knowledge of really what they were 
dealing with or the significance of it. But as time went on, 
they began to learn more and more. By the time Mrs. Orick was 
there, I think they knew what the deal was. You have heard Ms. 
Hatfield's testimony. What about the situation when you were 
there, Mrs. Orick? Did you wear protective gear?
    Mrs. Orick. I did.
    Chairman Thompson. I understand you worked as a radiation 
health physics technician, traveling all over the site. And you 
encountered various situations where the radiation limits were 
above the DOE limits and so forth.
    Mrs. Orick. Oh, the radiation readings would be in the 
millions and the DOE limit on beta would be 5,000 and alpha 
1,000, and we would be encountering things up in the millions 
of disintegrations per minute, which is highly radioactive.
    At first when I went out there, I was hired as a clerk. I 
was to do data packages, assemble data packages. I was not even 
supposed to be associated with any type of sampling, but I was 
immediately split into a sampling group where I carried and 
handled all samples that had come in from not only K-25, but 
Rocky Flats, Hanford, and all the other sites, and they were 
filthy. They did not have lids on them. They were broken open. 
And I had to repackage those, gather them up, carry----
    Chairman Thompson. So you came in contact with whatever was 
in there?
    Mrs. Orick. I did, and I was----
    Chairman Thompson. There was no way for you to know what 
all was in there.
    Mrs. Orick. I was not even given a pair of gloves, and I 
carried this stuff up next to my body, down the stairs, so I 
could get it to a big table like this. I ate my lunch on this 
table with this stuff sitting all around me, and I did that for 
a couple of years, and I have had six breast tumors--six. And 
then I would carry that stuff down into one of the old closed 
process buildings, and I cannot remember if it was 27 or 29 
because they adjoined, and I was never given any protective 
clothing to go in there, either, and that would have been one 
of the worst buildings on that site.
    Then after I went into radiation protection, we were in all 
the areas. There is not a place out there that I have not been 
in, and because I was a smaller person, I may have to lay down 
and crawl up under things or get on top of--buildings are 
inside of buildings, and you would climb the ladder to get from 
one rooftop to another to get your job done. And the only time 
that I ever was offered a respirator was when I did one 
transfer of UF-6 (uranium hexaflouride). All the other times 
and all of my work jobs daily, regardless of what I was in, I 
was never one time offered a respirator.
    Now, my husband, who worked there 28 years--I hope they 
have given you this picture----
    Chairman Thompson. Yes.
    Mrs. Orick. This is how he looked.\1\ This is his 
protection right here, and if you will notice, it is all over 
his face. He is dripping wet. This is his clothes. He would go 
change several times a day. There is no protective equipment 
here. And he might work next to the person where they were 
manufacturing certain things and he----
---------------------------------------------------------------------------
    \1\ Picture of Mr. Orick referred to appears in the Appendix on 
page 70.
---------------------------------------------------------------------------
    Chairman Thompson. Is this him coming off a shift here?
    Mrs. Orick. This is in the middle of one.
    Chairman Thompson. In the middle of it?
    Mrs. Orick. Yes.
    Chairman Thompson. And he has got all kinds of things, it 
looks like, splashed all over him.
    Mrs. Orick. Exactly. The powders would be so full in the 
air that he did not even see his partner that was working next 
to him. And the respirators, if they were issued one, would 
last them for 6 to 8 weeks. They would just put them in their 
locker, get them back out and put them back on and use them for 
6 or 8 weeks. They cost money and they did not want to issue 
one.
    Chairman Thompson. So there was never really any discussion 
or concern or warnings or anything like that, even if----
    Mrs. Orick. There was discussions to a point, but there 
was--we were trying to do postings at that time, but up until 
all of those years, there was nothing posted to tell you there 
was a beryllium area. They kept saying they did not have any. 
We documented 34 buildings that did. There was never a posting.
    Chairman Thompson. There was beryllium at K-25 and----
    Mrs. Orick. Exactly.
    Chairman Thompson [continuing]. Y-12, and 20 sites across 
the DOE complex. No one uses beryllium in the form that causes 
this kind of a problem besides DOE and the Department of 
Defense.
    Mrs. Orick. No, sir, and it is that way with the other 
compounds that they had there. No one else uses certain 
materials like what we did. And some of my duties would be to 
go in some of the places that had been shut down since the 
early 1940's and 1950's, and I would have to go in and these 
things would be busted open and I would have to try to clean 
that up and get a reading on it before I could allow anybody 
else to touch it. I never knew what it was----
    Chairman Thompson. If you were required to sit down and 
list all the things you were exposed to, there would be no way 
in the world.
    Mrs. Orick. No, sir.
    Chairman Thompson. You were exposed to everything that came 
across----
    Mrs. Orick. Yes, sir. That is what I am trying to say.
    Chairman Thompson. As you say, the combination of things.
    Mrs. Orick. Yes.
    Chairman Thompson. We have no idea, with all the 
sophistication we have got----
    Mrs. Orick. We do not know, no.
    Chairman Thompson [continuing]. And medical science today, 
we have no idea of the reaction of the human body with various 
combinations of things working together.
    Mrs. Orick. No, sir. But those areas that we were in, sir, 
I really believe that the contractor in the DOE did have 
knowledge of most of the areas, and they should have been 
listed on our work schedule. You are entering an area where you 
need a respirator or a Tyvek suit or a pair of gloves or 
whatever. But that just did not happen routinely like it 
should.
    Chairman Thompson. You mentioned in your testimony that 
your husband's medical records have been partially redacted.
    Mrs. Orick. They have, sir. They have cut out the main 
items. It says, he was exposed to, and they blacked them out. 
The proper thing to have done, if there was an issue with 
classification, would have been blocked out the area and then 
maybe we could have sought treatment for whatever the material 
was. But they did it the other way, so now we cannot even know 
what that is.
    Chairman Thompson. Well, I bet we can. [Laughter and 
applause.]
    This means that your husband is unaware of everything that 
he was exposed to?
    Mrs. Orick. Absolutely, as are all of these other workers.
    Chairman Thompson. What about his physicians? Were they 
given access to this?
    Mrs. Orick. No, sir. They have these----
    Chairman Thompson. Well, how can they treat him properly if 
they do not even know what they are dealing with?
    Mrs. Orick. Sir, they cannot, and that is one of the issues 
here. We are not being treated. There is no treatment. We have 
been tested to death. We have been tested to death for 5 years, 
20 tubes of blood at one time here and 20 tubes of blood there, 
and we still do not know what the results are, and we are never 
going to have them because they are just dragging on and 
dragging on and it looks good that we are getting tested. But 
we are not getting treated, and there is a difference.
    Chairman Thompson. Absolutely.
    Ms. Hatfield. Could I just say that we have gone through 
the same thing and the same issues, and for my dad, it is 
almost discouraging and encouraging to get him to go to the 
doctor because he keeps saying, why do I want to go, because 
there is nothing they can do for me. All they are going to do 
is draw more blood and do more tests and wear me out and I am 
still not going to know any more than I know right now and we 
are going to be out the money and we are going to be out all 
these things and I am going to take 16 more pills a day that 
are not going to do me any good.
    And so it is the same issue. Every time they call you, 
every time you go take a test, it is the same thing. Let us 
take bunches of blood, but they still do not give you any 
answers to any questions. There are no answers.
    Chairman Thompson. Thank you very much. Senator Voinovich.
    Senator Voinovich. I think that what I have heard today 
just builds on what I heard when I was down in the Piketon to 
hear the testimony of so many of you. What I have tried to do 
during my life is to try and respond to the real problem. The 
real problem right now is that a lot of people need medical 
care, compensation so that they can at least have some response 
to the conditions that they now have, and the longer we wait, 
the worse it gets.
    I think that our job in this Committee is to start moving 
the ball as fast as we possibly can, put the pressure on the 
administration, get them to step up to the table. We may have 
to come up with some more money, Mr. Chairman, to get on with 
this.
    One of the things that always bothers me as a new Senator 
is that we have all kinds of priorities and lots of new ones. 
We forget about the other priorities that we have. We do not 
see the people in the homes that are sick. We do not see the 
families that have had to live with the death of a loved one 
and the costs that were there that ravaged them so that they 
have nothing, as you pointed out, Mrs. Orick.
    We have an obligation to get on with this. Now, there are a 
lot of things, criminal, all of this stuff. It is there. That 
is something that we can deal with, but we ought not to wait 
until we get all the answers to all the questions because we 
will be here 6 years from now before we get all the answers to 
all the questions.
    So let us get on with it. Let us respond. Let us come up 
with something that is fair. I thought that the recommendations 
here, I think Mr. Walburn in your testimony recommended actions 
for Congress, or were they from Mr. Ray?
    Chairman Thompson. Mr. Ray.
    Senator Voinovich. Mr. Chairman, I think there are some 
pretty good recommendations here and I think that they go 
beyond what is in the current legislation.
    Chairman Thompson. I do, too. I mentioned to staff when he 
finished that that we need to take those and look at them, 
because we are going to be apart from where I think and you 
think the administration is going to come out on this, I am 
afraid.
    Mr. Ray. Well, I would just like to comment that 
Congressman Strickland's bill, H.R. 3495, would help Mrs. 
Orick. And also, I would like to follow up on what Mrs. Orick 
was talking about, going into different buildings. What it is 
called is contamination control, and apparently most if not all 
nuclear facilities lacked real contamination control. We are 
getting better at Portsmouth, but maybe people do not 
understand when we are talking about contamination.
    Maybe as an example, say this room was contaminated and you 
were not aware of it. We all come in, we sit down. There is no 
way for us to know that. You cannot smell it. You cannot see 
it. We are here. We have got it on our hands. It is airborne. 
And we have had this for a number of years. We are sending 
craft people onto jobs that they were not familiar with what 
was involved in a job. It may be a contaminated area they go 
in. They go ahead and do their job, not knowing it was 
contaminated.
    Senator Voinovich. Records have been tampered with, and 
then at the Mound plant we have in Ohio, DOE has been doing 
these studies to try and ascertain what the dosage was to 
figure out whether or not these people were exposed to whatever 
it was for 5 years. But when you look through a record and you 
see what has gone on and all of the unconscionable things that 
went on, the deliberate things to keep people uniformed, tamper 
with documents, and so on, that logic finally dictates that you 
do not wait 5 years to figure out that people have been 
affected.
    I mean, logic tells you that if individuals have been 
exposed to this and there is a higher, much higher incidence of 
a particular thing and the only thing that could have caused it 
would be their exposure to their plant facility, then logic 
says that the burden should be on the government to prove that 
it is not connected.
    As I say, we do need to get on with this, and that is all I 
can say to you. We will do what we can to move on and start 
getting some help out there and not wait 3 years before 
something happens in this Congress, and I am hoping that the 
representatives of the administration understand the urgency of 
this. These are God's children that are there, that are sick, 
who need help, who are not getting the insurance coverage that 
they need and medical help that they need, and in some cases, 
just the money to survive. We ought to get on with it.
    Ms. Hatfield. What we might, and I guess we have kind of 
skirted it, I talked a little bit about it and I know that Ann 
did, too, the diseases that my father has, there are no cures 
for those. He is terminally sick, and that is a very hard thing 
to look at in your face every single day. My dad knows that he 
is dying. There is no help for him.
    What price do we put on that? What price do we put on the 
fact that he did his job, he did it the way he was supposed to 
do it, just as Ann did, just as all these people have done, and 
these people in the audience, too. What price do we put on 
that? They have actually, in fact, given up their life by doing 
their job. That is a hard decision to make and it is a hard 
thing to have to look at every single day.
    As I was writing what I was going to say to you all, I kind 
of skirted around my father for 2 days and I would not let him 
read it. I kind of skirted it a little bit and I thought, I 
really do not want you to read this because I did not want it 
to impact him or affect, having to read about that, about what 
I was going to say. And I thought, well, he is going to hear 
it, so he might as well read it.
    But it is very hard to look at that every day and know that 
he may not make it to another birthday. He may not make it to 
another Christmas. And I know we all face that every day, but 
this is through no fault of his own, just like it is no fault 
that these people are as sick as they are. It is not their 
fault. It is not something that--they would change it tomorrow 
if they could. I mean, if he could get his health back and he 
could go out and do his farm, he would love that. That would be 
wonderful, and that would be the only payment he needs. But 
that is not going to happen. So what we have to look at is how 
to make them as comfortable as we can with the time they have 
left.
    Mr. Walburn. Senator Voinovich, I think something I would 
like to say, and I believe that you will follow up those other 
things, but what we are looking for immediately is some relief 
in our homes, relief from the day-to-day fight and struggle. If 
you look at 17 plants and their employees as a class of people, 
there is bound to be money in the government for research to 
take us as a class. If you looked at it as a syndrome, the 
nuclear workers' syndrome, find the money through research.
    We need relief in our house, and I have told you this. They 
have woven theirself into my house. I would like them out.
    Ms. Hatfield. Exactly.
    Mr. Walburn. They do not belong in my house. I deserve to 
get a chance to get off point and come home and relax. There is 
no relaxation in my home.
    Ms. Hatfield. That is right.
    Mr. Walburn. My son says, ``Dad, do you have a job 
tomorrow?'' I said, the best I know, son, but my wife says she 
will live in the woods with me, so I said, OK, we could do that 
if we had to. I do not think we are going to have to. But look 
at us as a class, because there is not me, not them. It is 17 
plants, many thousands of employees that are a class of people 
that have suffered a syndrome.
    Senator Voinovich. I think that that is a very good point. 
I also think that we need to, particularly with Paducah and 
with Piketon, to look at the financial condition of the company 
that is there and what could happen in terms of whatever health 
care coverage that the current workers have and those that are 
not now working. So that is another issue.
    But the point I am making is that we need to get on with 
this, get some legislation passed, get some help out there to 
the people that are there. How do you deal with the loss? I do 
not know. You are never going to compensate that.
    Ms. Hatfield. No.
    Senator Voinovich. But we do know that there are people 
that are sick out there and they need help. They need medical 
care. They ought not to be worrying about giving up, selling 
their farm and not having the money to pay for the prescription 
drugs that they need and some of those things. They ought not 
to have that worry. At least, they ought not to have that 
worry. So I think we can deal with that.
    And then the issue of, maybe in terms of medical response 
and how do you deal with some of these conditions, Mr. 
Chairman, we sure increased the budget of the NIH 30 percent 
this last time. They might be able to take a little piece of 
that money and say, these are people that gave their lives for 
their country and they are suffering and maybe we ought to see 
if we cannot have them look into seeing if there are some 
things that they can do that will maybe respond to some of 
these medical problems that some doctors cannot seem to 
understand how to take care of. That is all, Mr. Chairman.
    Chairman Thompson. Thank you very much for your leadership 
in this area, Senator Voinovich, and we are going to work 
together and we are going to get something done.
    Thank you very much for being here today. We again know you 
represent a large number of people, but you have done it very 
eloquently and very effectively and you have gotten the ear of 
a wide variety of people here today that we never had before. 
So you made a major contribution toward this.
    Now we need to move on and talk about doing something about 
it. What are we doing about it now? What are we doing about it? 
That is our next panel. Thank you for being with us here this 
morning. [Applause.]
    We are going to proceed immediately to our second panel. 
The witnesses are Dr. David Michaels, Assistant Secretary for 
Environment, Safety, and Health at the U.S. Department of 
Energy, and Dr. Steven Markowitz, Professor and Director, 
Center for the Biology of Natural Systems at Queens College, 
City University of New York, in Flushing, New York.
    Thank you, gentlemen, for being with us here today. Dr. 
Michaels, please proceed with your testimony. Your written 
remarks will be entered into the record, so if you would, 
summarize those for us. Dr. Michaels?

TESTIMONY OF DAVID MICHAELS,\1\ PH.D., MPH, ASSISTANT SECRETARY 
FOR ENVIRONMENT, SAFETY AND HEALTH, U.S. DEPARTMENT OF ENERGY, 
                         WASHINGTON, DC

    Dr. Michaels. Thank you, Mr. Chairman, and Senator 
Voinovich. I greatly appreciate the opportunity to be here 
today to discuss the Department of Energy's response to 
allegations of environment, safety, and health problems at the 
gaseous diffusion plants in Piketon, Ohio, Paducah, Kentucky, 
and Oak Ridge, Tennessee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Michaels appears in the Appendix 
on page 86.
---------------------------------------------------------------------------
    First, let me thank both of you for your very important 
leadership on behalf of the workers at Oak Ridge and Portsmouth 
plants. I know each of you has spent many hours listening to 
your constituents and working to find ways to help them. Your 
persistence and your focus over the past several months have 
been important to the administration, as well.
    I would also like to thank the witnesses who are on this 
panel as well as the people in this audience who came from 
great distance to tell us their stories. It takes great courage 
to do that and we are very grateful.
    When the concerns of exposures at the gaseous diffusion 
plants were brought to the attention of Secretary Richardson 
last summer, he immediately ordered complete and independent 
investigations. He further committed to determine that if 
workers were made ill because of poor worker protection, to 
seek to provide them with fair compensation. Let me emphasize 
that this commitment extends to workers at all three gaseous 
diffusion plants, not just Paducah, and across the entire DOE 
complex.
    The Secretary also directed my office to conduct a number 
of other activities, to expand ongoing worker medical 
monitoring at the three sites, to determine actual worker 
doses, and to complete a so-called mass flow study to 
understand how much recycled uranium was generated over 47 
years and where it all went.
    As the Committee knows, our independent oversight office 
has completed its comprehensive review at Paducah and submitted 
a final report last month, which is another public record. Our 
team is at the Portsmouth site as we speak and we expect to 
complete our work there in May. Last week, the team was in Oak 
Ridge for initial scoping and we expect the Oak Ridge review to 
be completed in late August.
    At Portsmouth, we have had an investigative team of 23 
technical experts at the site for more than 6 weeks. In 
addition to reviewing boxes of documents, they interviewed more 
than 240 workers. While we are not yet in the position to 
discuss our findings from the Portsmouth investigation, I can 
share several observations based on these interviews.
    As with Paducah, we have heard concerns that, in the past, 
safety concerns took second place to production, to schedule, 
and to cost, even when management was aware of safety problems. 
We have heard concerns that radiation protection practices were 
sloppy. For example, it was common practice for operators to 
remove gloves from the glove boxes to conduct some operations.
    Just as you have heard today, we have heard concerns about 
the adequacy of dosimetry programs and possible falsification 
of dosimetry records. We have heard concerns that radioactive 
wastes were improperly disposed of in certain areas and were 
not properly identified.
    In particularly, I would like to address Mr. Walburn's 
concerns. I was very pleased he brought that up today. I would 
like to follow up on that box of materials. I checked into 
this. The staff person who was sent that is no longer at DOE, 
but I would like to arrange to get another copy, if I can. I 
will personally pursue it, and we can certainly arrange for the 
copying costs, if I can do that with you.
    Let me emphasize that we are fully investigating all these 
allegations and that they relate to the historical operation of 
the plant, not to current conditions. I know the Committee has 
expressed interest in seeing certain documents. I assure the 
Chairman we will share all documents once our analyses are 
complete in a few short weeks. I know you understand that to 
ensure the integrity of the investigative process, we need to 
follow careful procedures and not release information in a 
haphazard or careless way.
    The mass flow project, the exposure assessment project, and 
the medical monitoring project are all described in my 
testimony, as well as that of Dr. Markowitz. I will devote my 
remaining time to discussing the administration's progress on 
our proposal for sick DOE workers.
    The Clinton-Gore administration's commitment to the 
veterans of the Cold War does not end with workers at Paducah 
or with workers exposed to beryllium. Last year, Secretary 
Richardson, along with several members of Congress, announced 
that the administration would propose legislation to provide 
compensation, both costs of medical care and the portion of 
lost wages, for the victims of beryllium disease. The Chairman 
is one of the original sponsors of this legislation.
    Because we already established that Paducah workers had 
been exposed to radioactive materials without their full 
knowledge or without adequate protection, we include a 
provision to provide certain Paducah workers with specified 
radiation-related cancers a $100,000 lump-sum payment. This 
legislation was historic in that it was the first recognition 
by the Federal Government that workers made ill from exposures 
in the nuclear weapons complex should be compensated for their 
illnesses.
    At the same time, President Clinton directed the National 
Economic Council to lead a review to determine whether there 
are other workers that should be included in the program. To 
support that effort, the administration has undertaken a number 
of activities.
    First, the NEC assembled a panel of health experts to look 
at the scientific evidence to determine if there are 
occupational illnesses among current or former DOE contract 
workers.
    Second, they looked at current State Workers' Compensation 
programs to see how they are working for DOE workers with 
occupational illness.
    We have also held public meetings at major DOE sites to 
hear directly the experiences of current and former workers. So 
far, we have held meetings in Paducah, Piketon, Oak Ridge, 
Rocky Flats, Hanford, Las Vegas, and Los Alamos. More than 
2,800 current and former workers and their family members 
attended these meetings and more than 370 shared their stories 
with us, and let me say, Mr. Chairman and Senator Voinovich, 
they were very similar to the stories we heard today.
    We heard from people who are proud of their work to protect 
national security but feel disappointed that this work may have 
made them sick and the government has done little or nothing to 
help them. Most told us they would not file for Workers' 
Compensation. They were told not to bother to apply because 
claims were routinely denied. The few who did apply rarely won 
their claims and many cases lasted years. Those who were able 
to win their claims did not receive benefits that would cover 
their cost for medical treatment or lost wages.
    Based on the results of these studies and the outcomes of 
public meetings, we expect the National Economic Council will 
make a recommendation to the President by March 31 of this 
year.
    I would like to mention and thank the Senators for their 
help so far in moving this initiative forward. We would love to 
encourage your help. Our bill has been referred to the Labor 
Committee and we know they are planning to hold field hearings 
in Ohio, which we greatly look forward to. We would love also 
for there to be a focus for this legislation in Washington so 
we could begin to address some of the issues that were raised 
earlier today.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions from the Committee.
    Chairman Thompson. Thank you very much. Dr. Markowitz.

   TESTIMONY OF STEVEN B. MARKOWITZ,\1\ M.D., PROFESSOR AND 
  DIRECTOR, CENTER FOR THE BIOLOGY OF NATURAL SYSTEMS, QUEENS 
    COLLEGE, CITY UNIVERSITY OF NEW YORK, FLUSHING, NEW YORK

    Dr. Markowitz. Good afternoon. Thank you, Mr. Chairman and 
Senator Voinovich, for inviting me here to speak today. I am an 
occupational medicine physician, which means that I specialize 
in the dilemma that Senator Thompson mentioned before, relating 
exposure to disease, hopefully, ultimately with the idea of 
preventing disease, because once we can identify the exposure, 
we ought to be able to prevent illness from occurring.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Markowitz appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    I direct an innovative medical and educational program 
called the Worker Health Protection Program at the Portsmouth, 
Oak Ridge K-25, and Paducah Gaseous Diffusion Plants, and I 
want to speak to you today about that program. My written 
testimony is longer. I provide more detail. But I will 
highlight my comments today.
    This program was established under Section 3162, the 
National Defense Reauthorization Act of 1993. It was 
established by Congress with a simple idea. That is, that 
workers at DOE facilities, former workers who had significant 
exposures and were at risk for occupational diseases ought to 
have made available to them medical screenings that could 
detect those diseases early, at a point at which medical 
intervention could be helpful, and it is under that program 
that DOE established the Worker Health Protection Program.
    We went through a merit-based competitive review process in 
order to get the contract from the Department of Energy. This 
program is sponsored by PACE International Union in conjunction 
with Queens College, City University of New York, which is 
where I am from. You may wonder why an occupational medicine 
physician from New York is required to do this work in Oak 
Ridge, Tennessee, or Portsmouth, Ohio, or Paducah, Kentucky, 
but some of the comments you have heard from the earlier panel 
may shed light on that, and that is the union which initiated 
the program wanted an independent, objective physician with 
expertise in occupational medicine who was not contaminated by 
their experience in those communities, not absorbed by the 
contractors or other employers in the community, and could be 
trusted to provide an independent, candid, expert opinion, and 
that is why I am involved with the program.
    This is not a research activity. This is a clinical service 
program meant to be of help to people. In addition to the 
medical screenings which we provide, which includes breathing 
tests, chest x-ray, a complete occupational history, medical 
history, physical examination, blood tests, including tests for 
beryllium, and urine tests, we also have a 2-hour educational 
workshop, which I regard as key to our program. It is run by 
current and former workers, two of whom are here today, Sam 
Ray, who spoke before, and Ben Taylor in Oak Ridge, and these 
workers are running the special 2-hour workshops for former 
workers in order to help people understand what they were 
exposed to and what medical screening can do for them.
    Let me give you some of the preliminary results of our 
worker health protection program. We have screened 1,000 people 
to date. I would say our most outstanding result really is the 
response that we have gotten from former workers to our 
program. We had a simple press conference at the start of the 
program last spring in each of the three communities, and since 
that time, we have done absolutely no outreach except that done 
by word of mouth by current and former workers. We have done no 
advertising for the program. We have received 2,000 phone calls 
to our national toll-free number from former workers who want 
to be screened, want to participate in our program.
    We have screened 1,000 people to date, all of whom--these 
are former workers--are volunteers for the program. They have 
called us because they want to participate. They want to find 
out the answer to their question, their central question, which 
is did my exposures that I had at that plant, was it 
deleterious to my health and what can I do about that now? And 
obviously, this is an important question, not only to the 
people in this room but the great numbers of former, and I 
would say current workers, certainly at the gaseous diffusion 
plants. Providing the answer to that, at least a partial answer 
to that question, is what our program is about.
    Of the 1,000 workers we have screened so far, about 10 
percent have asbestos-related scarring in the chest. That is a 
non-malignant scarring of the chest due to asbestos. About 20 
to 25 percent of workers have chronic bronchitis and/or 
emphysema, to which I believe their exposures to hydrofluoric 
acid and other irritants in the gaseous diffusion process 
contributed to their disease. There is near universal hearing 
loss, which is in part due to aging and in part due to the fact 
that the gaseous diffusion plants are very noisy places. 
Everybody recognizes that.
    We found 8 workers out of 245 from K-25, 8 workers, about 3 
percent, who have had confirmed positive beryllium sensitivity. 
This is a higher figure than we expected to find.
    We have seen minimal rates of kidney or liver disease, 
which we were worried about because of heavy solvent exposure, 
and most of the cases we have seen, I believe are probably 
related to other medical conditions, such as hypertension or 
diabetes.
    In addition, we have educated almost 800 people through 55 
workshops, 55 separate workshops led by Mr. Ray, by Ben Taylor 
from Oak Ridge, and our other coordinators on the ground, 
educating people about their exposures and their concerns.
    Now, I want to emphasize that ours is not a comprehensive 
screening program. We do not cover all medical conditions. We 
are looking at chronic lung disease. We are looking at bladder 
cancer at K-25. We are looking at kidney and liver disease and 
hearing loss. Under the mandate of Section 3162, we could not 
look comprehensively at all medical conditions that might be 
work-related.
    In addition, I would say that a lot of the medical 
conditions that people have are complicated and really not 
amenable to screening. What many people need is careful and 
thorough diagnosis and treatment centers by physicians who are 
expert in occupational medicine and who are independent enough 
to be able to give an expert, honest opinion.
    Let me say one other caveat about our program, which is 
that we have seen 1,000 people. That is a lot. There are at 
least 15,000 or more former workers eligible for our program. 
The people we have seen are self-selected. They have come to us 
as volunteers. The numbers I have given you on rates of disease 
may or may not be representative of the larger population, and 
we will know more over time.
    Let me talk about the future of the program, which is going 
to change, actually, within a week or two. In August 1999, when 
the issue of plutonium and the transuranics at Paducah came to 
light, or at least became public, the Assistant Secretary, Dr. 
Michaels, called our program and asked us whether we could 
expand our medical screening program, sooner rather than later, 
to include current workers, to test former workers at a greater 
rate, and to do in general a faster, more expanded program. And 
we said, yes, we could do that, and we submitted a proposal to 
him within a couple of weeks.
    I am happy to announce that our program has been expanded 
by the Department of Energy. We requested close to $6 million. 
They have located $3.5 million at present and the additional 
money, I understand, is in a supplemental request to Congress.
    There are three changes we will make in the program. One 
is, we will begin to screen current workers. I do not believe 
current workers at the gaseous diffusion plants are getting the 
kind of cancer and other screenings that they need and that 
those conditions are not being properly related to their 
exposures. So we will offer our program to current workers.
    Second, we are only funded to date to screen 1,200 former 
workers per year. At that rate, it will take us at least a 
dozen years to screen all former workers once. So we are going 
to expand the rate at which we are screening former workers up 
to 3,000 per year at the three sites, which is a marked 
expansion of our program.
    With full funding, we will be able to screen close to 6,000 
workers per year, completing the screening of current workers 
within 2 years and former workers within a number of years 
after that because there are so many former workers.
    And last, let me say that we are going to add an innovative 
screening technique, lung cancer screening. Lung cancer is an 
important problem among gaseous diffusion plant workers. Let me 
explain why. Gaseous diffusion plant workers work with uranium, 
and uranium is a lung carcinogen. They work with beryllium, and 
beryllium is a lung carcinogen. They work with plutonium and 
neptunium, we find out now, and those agents are plausibly 
linked to lung cancer. Many of them also smoke cigarettes, and 
their occupational exposures multiply the risk of the cigarette 
smoking to produce an excess risk of lung cancer.
    Previously, we were not able to screen for lung cancer. 
Right now, at present, about 160,000 people die per year of 
lung cancer in the United States. Most of them present late in 
their disease with symptoms. They come in coughing up blood. 
They come in with chest pain. They come in with shortness of 
breath. Their disease is diagnosed at too late a stage to do 
anything about it.
    We can now change this. Last July, there was published in 
Lancet, a major medical journal, a study from New York, Cornell 
University, showing that use of the CT scan for lung cancer can 
detect malignant nodules at an early stage when they can be 
resected. In that study, they screened 1,000 people. One out of 
35 had lung cancer, and almost all of the people they found 
with lung cancer had Stage I disease, had small nodules that 
could be resected. Those people, most of them will lead normal 
lives.
    I say we should do this, and I proposed this idea to Dr. 
Michaels and DOE has accepted it. Who else in the country 
should get this screening test first but the gaseous diffusion 
plant workers and others within the DOE complex because of 
their long history of exposure to lung carcinogens. Normally, 
this kind of medical innovation comes to the metropolitan areas 
first. In New York, if you walk in Manhattan from East 19th 
Street, Beth Israel Hospital, up to 168th Street at Columbia 
Presbyterian, you will encounter no less than five medical 
centers that will give you this CT scan for early detection of 
lung cancer. That is to say, if you have about $1,000 in your 
pocket to spend.
    You cannot get this right now in Paducah or Portsmouth or 
Oak Ridge, Tennessee. The radiologists are much less aware of 
it. The machinery may or may not exist. So we propose that it 
ought to go to Paducah and Portsmouth and Oak Ridge, not 
waiting 5 or 10 years at the normal rate of diffusion of 
medical advances, but it ought to go directly from the study 
published less than a year ago to the facilities and to the 
people who need it most.
    So now DOE has provided us with funding to lease the CT 
scanner. We will put it on a 40-foot mobile unit and we will 
drive it between Portsmouth, Oak Ridge, and Paducah. We will 
provide CT screenings for early detection for lung cancer for 
as many former and current workers as we can. So that is the 
new part of our program, which we regard as very exciting. It 
is very exciting, because I think with this technique, we are 
going to be able to actually save some lives. We are going to 
be able to detect lung cancer early, have it resected, and help 
people lead normal lives.
    That is a summary of the Worker Health Protection Program. 
It is a partial response to, as you said, Senator Thompson, the 
unseemly legacy of DOE in the past and, hopefully, the 
beginning of a different kind of legacy for the future. Thank 
you.
    Chairman Thompson. Well, thank you very much.
    It is kind of hard to get your arms around all this. There 
are so many studies involved and people and departments and all 
that, but let me see if I can break it down as to where we are, 
and I want to thank both of you gentlemen for what you are 
doing.
    Dr. Michaels, you work for an outfit that does not exactly 
have an illustrious track record in this regard, but you have 
not been there very long, so my comments are not going to be 
personal to you. I think you are trying to move in the right 
direction, not enough and not fast enough, but in the right 
direction. Of course, it might help if we helped you with some 
of the monetary parts of that and budgetary parts and we intend 
to do that. But you have worked with us and we appreciate that.
    We are going to get a report on Oak Ridge in August. We 
have already got a report on Paducah. You are well into the 
situation there in Portsmouth. Apparently, you are finding some 
of the same things in Portsmouth you found in Paducah, and I 
would assume that you are going to find some of the same things 
in Oak Ridge that you found in the other two. So we will have 
that in August. We still are awaiting this report from Drs. 
Byrd and Lockley. It is supposed to be due April 30 of this 
year. You mentioned the National Economic Council report that 
is due March 31 of this year.
    So we have all these reports coming out that are probably 
going to say pretty much the same thing, my guess, and that is 
there is an awful lot of smoke there and it looks kind of bad, 
but there is no conclusive proof as to anything. I want to talk 
about that for a minute, because I think we have to start 
looking at this situation maybe differently than we have in 
times past.
    While the National Economic Council report, Dr. Michaels, 
is not due out until March 31, we just happen to have gotten 
hold of a draft of that, which may or may not turn out to be 
the one that you come up with in March, but let us assume for 
the moment that maybe it is going to be pretty much in keeping 
with this draft, and the draft says there is evidence from 
health studies of DOE workers that suggest that some current 
and former contractor workers at DOE nuclear weapons production 
facilities may be at increased risk of illnesses from 
occupational exposure to ionized radiation and other chemical 
and physical hazards associated with the production of nuclear 
weapons. For certain facilities and for certain subgroups of 
workers within these facilities, some evidence suggests a 
strong association between employment and adverse health 
outcomes. Some studies incillate an increased risk of adverse 
health outcomes with increased levels of exposure to ionized 
radiation.
    Dr. Markowitz, that does not come as any surprise to you, I 
do not assume, if that turns out to be the report.
    Dr. Markowitz. No.
    Chairman Thompson. That is consistent with what you are 
running across, I would assume.
    Dr. Markowitz. It is consistent from what is known in the 
published literature, sure.
    Chairman Thompson. We both alluded to the problem that we 
have here, because we are getting a whole lot of reports and a 
lot of activity, but as they say, that does not necessarily 
feed the bulldog. Let us talk about what we are going to do 
about all this.
    Now, obviously, you have got to get your data together to 
the extent that you can. It is amazing that the government has 
taken this long to really do these surveys, because as you 
point out, they are very complex. There are a lot of different 
factors. Statistics say different things that do not seem to 
make sense sometimes.
    I noticed here in one of the findings from one of the DOE 
studies that, overall, DOE production workers had significantly 
lower age-adjusted death rates compared to the U.S. general 
population for all causes of death combined, and there were 
only two exceptions. So that jumps out to you until you stop to 
consider you are talking about the population in general and 
people who work at anything probably are healthier than people 
who are not working. So, statistics can lead you in all kind of 
different directions, but there is one common theme and that is 
these workers are clearly having problems that other people do 
not have in these numbers and they clearly were exposed to 
things that, we will say, more likely than not have to do with 
those illnesses.
    My problem is that we get all these reports and we wait on 
all these things and so forth, but we are never going to come 
to any conclusions and we are going to have to face up to that, 
and the reason for that is the inherent difficulty and 
causation, but also the faulty records that have been kept in 
times past, the fact that the government had an obligation to 
keep up with exposure and they did not. They in some cases, and 
some of the things that you have run across, there in Paducah, 
you had a doctor there that was on the government payroll who 
said, this is a bad public relations problem so we had better 
not handle this, I mean, the most terrible things.
    And then you point out the fact that these folks for all 
these years are going to--when I grew up, a doctor is a doctor. 
They are all the same. But this is a highly specialized area 
and not a lot of people know what they are dealing with, plus, 
a lot of times--no reflection on any particular doctor--but the 
fact is they are working for the government in some cases, and 
we have seen what that leads to.
    So we are going to have to ultimately say, well, what are 
we going to do about all this? I do not see any resolution 
where you are going to say with certainty or beyond a 
reasonable doubt or beyond a preponderance of the evidence that 
you can prove in a court of law that there is a cause and 
effect relationship, and that bothers me.
    So the question is, and Dr. Michaels, you are going to come 
up with something here, a recommendation supposedly in March, 
but the question is, what kind of system are we going to come 
up with that is fair in order to do justice, in order to more 
likely do justice? And I will tell you something, if there is a 
question of being a little unfair to the government or being a 
little unfair to these people, guess which side we are going to 
come down on that in view of the history of this thing?
    And I will tell you, Dr. Michaels, if you come up with a 
proposal that has a lot of legalisms, and I imagine you are 
over there looking at these numbers now, 55,000 workers or 
something like that and multiplying that by X-number of dollars 
and all that is going through your mind, but if you come up 
with something that puts the burden on these folks that they 
cannot meet, if you come up with something that does not have 
the correct presumptions and does not incorporate into it the 
history of this and the responsibility the government has, it 
is going to be rejected and we are going to go to the floor of 
Congress and broaden the discussion and the administration is 
going to wind up being embarrassed for being so niggardly with 
its proposal, and I do not think it wants to be that.
    I think Bill Richardson is trying to move forward. I am not 
sure he realizes yet the extent of the problem and the extent 
of the determination that we broaden this sufficiently and that 
we have some kind of a system that does not require these 
people to prove things that the government itself in many cases 
has made it so that they cannot prove.
    And Dr. Markowitz, you probably have a lot of thoughts 
going through your mind about the things I have said, so I 
would like to hear from you.
    Dr. Markowitz. Let me address some of your earlier 
comments. I mean, there are a lot of complexities, but some of 
the problems can be broken down. We have seen about 1,000 
people, and about 800 people--I have gone through their records 
and I have written them letters, individual letters giving them 
the results of their examination and telling them whether their 
conditions are work-related or not, at least for the conditions 
we are looking at.
    In fact, for the things that we are looking at it is not 
very complicated at all. If a fellow was a maintenance mechanic 
at Portsmouth for 20 year and he has scarring in his lungs 
which is typical of asbestos exposure, then he likely has 
asbestosis due, at least in part, to that exposure he got at 
that plant. I do not have to prove beyond a reasonable doubt. I 
mean, it is not a murder charge here. I just have to prove that 
there was likely to be a contribution from that exposure, and 
that is sufficient. That is the standard in occupational 
medicine.
    For a fellow who worked at Oak Ridge who worked with 
hydrofluoric acid, which is used industrially to etch glass, 
and that person now has emphysema, and they smoked cigarettes, 
likely, I say that hydrofluoric acid contributed to their 
emphysema. I think I am right about that.
    Chairman Thompson. When you say, likely to have contributed 
or contributed and so forth, is that sufficient? Do you think 
that is sufficient in most State Workers' Compensation cases to 
get the checks?
    Dr. Markowitz. That is the standard.
    Chairman Thompson. The medical standard might be one thing 
and the legal standard might be another, and that is the 
problem that we are encountering a lot of times.
    Dr. Markowitz. I am not an expert throughout the country in 
Workers' Compensation standards, but I can tell you that what I 
have come across in the States that I have looked at so far is 
that if there is a contribution from the exposure to the 
disease, that is sufficient. There are other problems with 
compensation. I do not think that conceptual problem is the 
main problem right now.
    The problem that Mr. Ray was talking about, chondrosarcoma, 
a special type of bone cancer, you go to the cancer 
epidemiology text, the main one, called Cancer Epidemiology, 
and you look under bone cancer, the first sentence under 
ionizing radiation is that chondrosarcoma and the other types 
of bone cancer are caused by ionizing radiation. So that is not 
rocket science to make that kind of statement about causation. 
There is a lot of information available that supports a lot of 
the claims that people are making.
    Now, there are other areas that are far grayer. People who 
have multiple system problems, who have neurologic disease, who 
have immunologic problems, those are not amenable to screening. 
Those are tougher to figure out. And my view is that those 
people need special diagnostic and treatment centers set up in 
the communities operated by independent expert physicians and 
others with the full participation of the patients and of 
people in the community who are involved who will deliver that 
honest opinion.
    In 1987, we at the Mount Sinai School of Medicine did a 
study of occupational disease in New York State, and we said 
how much we thought it cost. And after that, the State 
legislature set up a system of clinics, independent diagnostic 
and treatment clinics, eight of them around the State. Every 
worker and every community resident within an hour could drive 
to a facility which would give them a fair, objective expert 
opinion about whether their disease was work related or caused 
by some environmental factors. I do not see why that should not 
exist in the communities that you are concerned about.
    Chairman Thompson. I think your information and your 
technology is probably just ahead of where we are realistically 
and we need to catch up to what you are talking about. There is 
no question but there are some cases where exposure is clear, 
that the cause and effect may be clear with regard to certain 
diseases. I am not talking about those cases necessarily, 
although I am wondering from Dr. Michaels, I am going to ask 
him a little bit later whether or not the compensation system 
they are going to set up are going to incorporate the standards 
that Dr. Markowitz mentioned, and that is a contributory matter 
rather than--or likely to have contributed, some of that 
nature, those very important words.
    What I am concerned about are those vaguer situations where 
there is not a clear cause and effect, and part of the reason 
for that is because the exposure data is insufficient, and the 
reason for that is the government did not keep it.
    Mr.--I started to call you Dr. Voinovich--we have got so 
many doctors, Senator. [Laughter.]
    Senator Voinovich. First of all, I would like to say that I 
have been very impressed with the cooperation and the 
conscientiousness of Dr. Michaels. Dr. Markowitz, I am not 
familiar with all the work that you are doing, but you get good 
marks from Dr. Michaels, and obviously from your testimony you 
really care about what you are doing and the people that have 
been affected by this longstanding situation that we have had 
in the country.
    In S. 1954, the administration proposal, does the 
administration intend to consider compensation for respiratory 
ailments or is cancer the only covered ailment?
    Dr. Michaels. Would you like me to speak to actually that 
bill or to the----
    Senator Voinovich. What I am interested in is that when we 
get legislation, let us make sure we cover everything, and you 
have chemical exposure, for example, fluoride, hydrofluoric 
acid, trichlorethylene, ethylene, and some of these other 
chemicals that people have been exposed to. It seems to me that 
when we are doing this, we ought to cover everything that 
people have been subjected to and not just restrict it to say 
if it is not cancer, it is not covered.
    Dr. Michaels. No, I agree, and Secretary Richardson has 
been very clear. He wants to cover everybody across the DOE 
complex. If they have a disease, any disease caused by 
radiation or toxic chemical exposure, they should be 
compensated. And certainly that is the direction that Secretary 
Richardson is pushing very hard to do.
    Senator Voinovich. So it is going to be a broad-based bill 
that we are not going to end up saying to somebody, I am sorry 
but we left you out?
    Dr. Michaels. I obviously cannot predict exactly what will 
be in the bill because we are not at the end of the process, 
but I can tell you certainly what Secretary Richardson and I 
are committed to trying to get. He certainly said he wants to 
cover everybody.
    Senator Voinovich. The other thing is that in preparing for 
this hearing, my staff has learned of documents that you have 
in your possession, and I have written to you on them regarding 
the oxide conversion plant at Portsmouth. The oxide conversion 
plant, from what I understand, is a plant that recycles spent 
fuel from nuclear reactors. Is that information going to be 
coming----
    Dr. Michaels. Yes. We will release it promptly. We have a 
number of documents. Some are in my possession. I am told there 
are additional ones that I will be receiving. Our commitment is 
to release all documents publicly either at the time of the 
release of our report in May or before that, depending on--and 
we will put them on our website and we will give them to you 
and to the press. No documents will be withheld unless there is 
some security matter that requires that, and we will do 
everything we can to release those, as well.
    Senator Voinovich. Dr. Michaels and Dr. Markowitz, you have 
an historic opportunity because of the fact that you are new on 
board, because of your medical background, because of your 
experience, to help draft some legislation that will really 
make a difference in the lives of people in this country that 
have been affected by all these facilities that we have had. I 
would really be interested in--following up on your testimony, 
Dr. Markowitz--of the things that we can do from a diagnostic 
point of view, I mean, if you had the ideal world, what would 
you be doing?
    Now, you have talked about bringing in the equipment. I 
know, for example, I have a good friend of mine that is in 
pretty bad shape from lung cancer, and if he had been diagnosed 
earlier, I think he was, what is it, stages 1, 2, 3, 4, I think 
he was at stage 3, and if you get somebody at stage 1, you have 
a good chance of making sure that the cancer is taken care of.
    So the point I am making is that from the point of view of 
an aggressive action plan by the Department of things that you 
can do and pay for that would go out and try to identify as 
early as possible the problems that people have, I would like 
to know what that ideal plan would be, and then what part of 
your budget that would be paid for, because Mr. Chairman, we 
have got to know--we can talk all we want to, but it is a 
question of coming up with the money to pay for some of these 
things.
    This would be something the Department could do. So now you 
have got people, you have screened them, you have got a 
diagnosis. The next issue is, how do you provide compensation 
for individuals, and there are a variety of--I do not know what 
insurance coverage these folks have or do not have, but to look 
at what the average situation is and what is it that in a piece 
of legislation we could include that would guarantee that once, 
for example, you diagnose somebody at lung cancer 1, that they 
have the insurance coverage that they can go in and have 
somebody take care of it and not have the problem of, I have 
got it, but how do I take care of it? So that would be the 
second tier. That would have to be in the legislation.
    And then I do not know how you compensate for somebody that 
has passed away. I mean, I do not know how you can do that, but 
I think there are some people that can think about that issue.
    The point I am making is that we have got this chance to 
really make a difference right now and I think that I would 
like for you to come back to this Committee with your best 
recommendations. I know you are going to be making it to your 
agency, but we are interested in being helpful. Maybe we can 
collaborate. But I do not want a minimum thing. I would like to 
say, this is what we really think would get the job done, and 
then let us see if we cannot get that taken care of.
    In addition, the issue of some of these things that--I 
would like your opinion, are there some things that you have 
seen out there that you do not know what it is and where we 
need some specific research work? Would you want to comment on 
that?
    Dr. Markowitz. Not really yet. We are just getting our data 
together to begin to figure some of that out. Ours is funded as 
a 5-year pilot program by DOE. We are starting our fourth year. 
By the end of 5 years, we will have screened a lot of people, 
but by no means exhausted all the people who deserve screening. 
And so hopefully the program will be continued beyond that.
    I would make a strong plea in favor of presumption. When I 
look at these people's records, their occupational exposure 
history, I look at their job title, I know what they are 
exposed to. We have a 1-page checklist for each job. I look at 
their diagnosis that we make, and for a large proportion of the 
times, it is an easy association to make, because I know if a 
person was, again, a maintenance mechanic or a process operator 
and they have given lung conditions, their exposures likely 
contributed to that. That is not that difficult.
    I recognize that the exposure information going back 
historically in DOE facilities is in adequacy. I would say in 
the private sector it is probably no better, having worked with 
patients at other facilities, like DuPont, Goodyear, etc. There 
is no difference, I think, historically, between the private 
sector and DOE except that DOE should have been better, I 
think, because of accountability and it served the public 
purpose.
    But in any event, those exposure data do not exist and I 
think we cannot really hope that they will exist or be able to 
make judgments hoping that there are quantitative data we can 
rely on. If a person reports exposure, had a job title that we 
believe exposure was plausible, has a plausible condition, then 
to me, that is sufficient, and that is where judgment of 
occupational medicine comes in. I do not understand why 
legislation cannot reflect that.
    Senator Voinovich. Good. The other thing, of course, is the 
stress level. I mean, one of the things that I think that the 
Department should be looking at right now, we have a lot of 
people in this room and a lot that are not here are worrying 
what is going to happen to USEC. Are they going to stay in 
business, and if they go out of business, then who is going to 
take care of the insurance for the current workers?
    This is a big deal. I think everyone agrees that, in fact, 
the answer to the question I asked was, do we need to have a 
uranium enrichment facility, and the answer to that was, yes, 
we do. So if they do not do it, then somebody has got to do it, 
and I think the issue of the health coverage of the current 
workers and then those that have been exposed in the past and 
what kind of health coverage they are going to have is a big 
issue.
    You cannot put a dollar figure on stress, but in this 
country, one of the biggest problems people have is whether or 
not they have insurance or not to cover their health problems. 
So I think the Department ought to be looking at that issue in 
terms of down the road decision making about that facility.
    When do you think that we will have enough information to 
put something together?
    Dr. Michaels. A legislative package?
    Senator Voinovich. Yes.
    Dr. Michaels. I am hoping that there will be a proposal 
within the next month or so. Obviously, Congress can go and do 
this on their own. We would like to work very closely with 
Congress and the Members here, especially, in putting this 
together.
    Chairman Thompson. You will.
    Senator Voinovich. I have faith, Mr. Chairman, that we are 
going to get some good information from these guys, and I 
really mean that. I think that we ought to do it with the idea 
that it is going to be something that is not going to only take 
care of the current situation but something that we can rely 
upon in the future. Would it not be wonderful to be able to say 
that we have had all these people that have worked at these 
facilities, and God knows what is still out there that we do 
not even know about, and that if it does arise, that we have a 
plan in place that can respond to the needs of these people. We 
are looking forward to working with you.
    Dr. Michaels. Thank you.
    Dr. Markowitz. Thank you.
    Chairman Thompson. Just a couple more things. First of all, 
Dr. Markowitz, you really are doing the Lord's work and both of 
you are in trying this early detection. I do not mean to 
minimize that at all. It is part of the same problem, but it is 
a different kind of problem from the compensation part. It is 
extremely important that we fund that and that we do it at a 
faster rate. You are going as fast as you can with the money 
you have, but we need to do that at a faster pace.
    The other part of that is, though, the more immediate part 
is all those people who need immediate help, who we know that 
have major problems. We do not have to worry about trying to 
find out if they have problems. We know that they do.
    So I get back again to the standard that we are going to 
apply, and I think, Dr. Michaels, I would pay close attention 
to what Dr. Markowitz said, and what he said is that there are 
a lot of cases out there that are pretty easy to determine a 
causal relationship. That is going to come as kind of a 
surprise to a lot of people who are going to be saying, in a 
sense, if it was that easy, why have I not gotten a little bit 
more response or compensation for it, if you are one of those 
things that fall into the easy category?
    I think whatever legislation that you propose needs to take 
that into consideration. He talks in terms of contributes to 
the problem and all that. His words are easy to slough over, 
but if you slugged it out in a courtroom for 15, 20 years, you 
understand, those are very important words and your people, 
lawyers over there, all know that. So I encourage you, do not 
set the standards so high that it is going to be too difficult. 
Look at some of these other standards, Agent Orange, Black 
Lung, all these other things. I think if you look back over 
there, you did not set the standard so high there. Of course, 
maybe the numbers were not as big, either, but it really should 
not matter.
    I think the language that Dr. Markowitz uses there is good 
language, but a Workers' Compensation case or something like 
that requires usually a higher standard of proof and that is 
not what we should be dealing with here.
    Especially from what I hear about what you are going to 
come out with with radiation exposure, for example, I am 
concerned about it, because as I understand it, compensation 
decisions would be based on a number of factors, including dose 
information. I am not asking you to comment on your report that 
has not come out yet officially, but if that is the case, 
again, we know that dose information, we have a problem with 
that. So I would urge you not to rely too much on something 
like that as you come forward with your proposal.
    What about this business of medical records that have been 
redacted? We are going to have to get around that problem. I 
would ask you, and I am going to be talking to Secretary 
Richardson about that and these other things, but that is just 
lying out there. That will not work. We have got to do 
something about that.
    Now, we can set up a system. We can get some disinterested 
third parties or go to a court in camera or whatever we need to 
do to get around that, but we cannot have these people out here 
not knowing what they have been exposed to if, in fact, there 
are cases where--these look like cases where you know what they 
have been exposed to, we just cannot tell you, and that is not 
going to work. Be thinking about that, because we are going to 
be talking to you about that.
    Dr. Michaels, it has been reported in the press that 
417,800 tons of recycled uranium, that is, uranium that had 
already been used to produce plutonium for weapons and was 
therefore contaminated with plutonium, neptunium, and other 
radioactive materials, were sent to the K-25 plant during the 
1950's, 1960's, and 1970's. In your testimony, you say that Y-
12 received some recycled uranium, as well. That is certainly 
not as much as Paducah received, but it is, I believe, about 
three times more than DOE originally estimated when the Paducah 
story first broke. Can you tell us what you know right now 
about this recycled uranium that went to Oak Ridge?
    Dr. Michaels. I do not know much more than what I put in my 
testimony. We have a team of people from my office leading what 
we call the mass flow project to actually try to trace through 
invoices and other records all the materials that could have 
come from either Hanford or Savannah River, where plutonium was 
extracted from uranium in the first go-around, so we hope to be 
presenting that later on in the spring.
    We understand the initial estimates were not necessarily 
accurate. We tried to put them out in that context. We felt at 
the time of the Paducah, the first open discussion of this, it 
was important to put out what we knew, even if we knew it would 
not be totally accurate, rather than have to wait a year. But 
we are now going through literally thousands of records to try 
to determine exactly how much went to different locations.
    At the same time, in terms of the three gaseous diffusion 
plants, we have a team of people associated with the University 
of Utah working jointly with us and the University of Utah to 
determine what exposures occurred, both to uranium and to 
plutonium, neptunium, and some of the fission products, because 
just knowing that the contaminated uranium went there is not 
enough. We obviously want to know how much exposure occurred 
and we are working very hard on that, as well, and we hope to 
be getting----
    Chairman Thompson. So we can expect a report on that about 
when?
    Dr. Michaels. You will be getting lots of reports, sir. I 
cannot tell you when the----
    Chairman Thompson. Well, one that will tell us how much of 
this stuff went to Oak Ridge. That is the one I am asking 
about.
    Dr. Michaels. The Oak Ridge one, with the exception of the 
Y-12 part, we hope to have our final reports by June. Y-12 will 
take a little bit longer, but the K-25 site will be done by 
June.
    Chairman Thompson. All right. And then Y-12 shortly after 
that?
    Dr. Michaels. Shortly after that.
    Chairman Thompson. One more question. The GAO report back 
as far as 1980 concluded that the Oak Ridge operations office 
did not conduct adequate oversight of health and safety 
operations at the plant, did not conduct the required number of 
inspections and appraisals, did not provide an adequate forum 
for workers' complaints, relied too heavily on contractors to 
resolve these issues that arose. Of course, it was often in the 
best interest of the contractor not to resolve them. This goes 
back to 1980.
    When that report was written, the local field offices were 
responsible for overseeing the safety and health programs of 
the facilities under their purview. I believe this 
responsibility has been moved to DOE headquarters under your 
supervision, now is that correct?
    Dr. Michaels. Not really. The field offices have 
responsibility for overseeing health and safety on a day-to-day 
basis. My office, and I have a Deputy Assistant Secretary for 
Oversight, David Statler, who is here, is responsible for 
general oversight in the complex, and we go and we do periodic 
inspections to see how the local oversight is going on.
    But oversight, there are many of us in DOE who have the 
title ``oversight.'' Because of the nature of the risks 
involved, safety and health oversight is done locally and 
should be done by very highly qualified and powerful staff.
    Chairman Thompson. What can you say to assure us that it is 
being done any better than it was in 1980?
    Dr. Michaels. We have beefed up our oversight 
investigation, which we oversee the local oversight people, and 
I think we are doing a much better job issuing pretty hard-
hitting reports, and the Paducah report was one that, I think, 
got a lot of attention. We do not pull any punches. We go and 
we look and when we see a problem, we call it to the public's 
attention as well as to our own attention.
    Secretary Richardson recently appointed a new field manager 
for Oak Ridge, Leah Dever, who is very committed to 
environmental safety and health. In fact, when she began at 
DOE, she began in the environment, health, and safety unit, 
working for the office that I currently head. I think her 
commitment to these issues is unequalled, is unsurpassed in the 
complex and I think she is doing everything she can, as well, 
to increase our daily oversight.
    On the other hand, we still have--our problems still occur 
and we have some very difficult procedures and processes to 
work with, some very, very toxic and hazardous chemicals. We 
had an explosion in December at Y-12 that was--we identified 
significant problems associated with that and we have to just 
keep pushing as best we can.
    Chairman Thompson. I think that is the problem we are 
trying to reinforce. You have some very toxic and hazardous 
materials that you are dealing with there.
    Dr. Michaels. I know. I do not minimize any of those 
problems, sir.
    Chairman Thompson. And I know that you do not. Thank you 
very much.
    Senator Voinovich, do you have any more questions?
    Senator Voinovich. I just have one question more, Mr. 
Chairman. In your screening, Dr. Markowitz, thus far, we had 
testimony by an Anita George in Piketon about the reproductive 
problems that women were having, miscarriages and--I think she 
said just about everybody at the place has had a hysterectomy. 
Through your screening, have you surmised anything about the 
accuracy of that or whether there is a much higher incidence 
of, let us say, hysterectomies? If everybody at the place has 
had a hysterectomy, somebody has got some real worries about 
what they have been exposed to.
    Dr. Markowitz. Right. Well, we have not asked that specific 
question. We do collect general medical histories on people. We 
have only screened about 350 people at Portsmouth, and a small 
percentage of those would be women, so we really would not have 
enough data to address that. But over time, we would be able to 
collect that kind of information.
    Senator Voinovich. I would really be interested in that, 
because that to me was shocking, that women who had worked 
there had miscarriages and obviously somebody advised them to 
have hysterectomies, and I would like to verify that if it is 
true.
    Dr. Markowitz. OK. As we develop that information, I will 
get it to you.
    Senator Voinovich. Thank you, Mr. Chairman.
    Chairman Thompson. Dr. Markowitz, and this will be final, 
but you just mentioned something that reminded me of something 
else that concerned me, and that is it seemed like your studies 
in large part are studies of other studies that have already 
been done. You know what my concern is there, that a lot of 
these studies that have been done historically are lacking and 
inadequate and incomplete. It points out what a massive job it 
is. I mean, if you went out and started a new nationwide 
survey, how long would that take? But it does point out a 
difficulty, does it not, the fact that you are having to rely 
in many cases on your surveys on data that may be flawed in 
some respects?
    Dr. Markowitz. At the start of our project, we had a year 
needs assessment and I looked at all the studies that were 
published, specifically at K-25, Portsmouth, and Paducah. No 
one had ever done any work at Paducah. There was some limited 
work by NIOSH at Portsmouth and some more extensive work at K-
25. We read those and critiqued them and took the information 
of value from them, in particular with a grain of salt. We 
could recognize the weaknesses, particularly in the exposure 
measurements, problems with outcome measurements, the problem 
as you mentioned before, Senator Thompson, about the healthy 
worker effect, the fact that people who work start out 
healthier and often, in some respects, stay healthier, at least 
the large proportion, than people who do not work, so you 
always see this depression in the overall risk of death for all 
causes.
    But our work really is--first of all, we are not really 
doing a study. Our work will yield information, but ours is a 
service to people. We are medically screening and educating 
people about their risks, identifying health problems. This is 
not an epidemiologic study. Over time, we will have enough 
information, I think, to make some statements. But this is 
intended to be a service to people.
    Within the budget we have, within the mandate we have, we 
try to cast it as broadly as we can to capture multiple 
outcomes and exposures, but we really cannot do it all, given 
the limitations. We do not wholly rely on the studies that have 
been published in the past. We make our own judgments because 
we know what hydrofluoric acid does. We know what 
trichlorethylene does. We know what asbestos does. If it did it 
at insulators working in construction, it will do it at a DOE 
gaseous diffusion plant. So we use that kind of information, as 
well.
    Chairman Thompson. Do we still have a lot to learn about 
how these various chemicals and other elements interact with 
each other in the human body?
    Dr. Markowitz. Absolutely. Most of what we know about toxic 
agents and radiation is really limited to several dozen 
agents--lead, mercury, the ones you hear about, 
trichlorethylene. Most of the others, we do not know a whole 
lot about, and mixtures, we know very little about. We know 
about asbestos and cigarette smoking. We know about uranium and 
cigarette smoking. But mixtures of toxic chemicals have been 
really very little studied, very difficult to study, and NIHS, 
in particular, is interested, but there has not been a long 
track record on this in the past.
    Chairman Thompson. Thank you very much.
    Gentlemen, thank you very much. We look forward to working 
with you and we thank everyone for being here and being so 
attentive today. Thank you very much.
    The record will remain open for 1 week after the close of 
this hearing. We are adjourned.
    [Whereupon, at 12:50 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 PREPARED STATEMENT OF SENATOR MIKE DeWINE, SENATOR FROM THE STATE OF 
                                  OHIO
    Mr. Chairman and Ranking Member Lieberman, first let me express my 
appreciation to you for holding this oversight hearing. I believe that 
it is important to the people of Piketon, Ohio to know what material 
the employees of the Portsmouth Gaseous Diffusion Plant were exposed 
to, why no one has provided complete and accurate information on the 
health and safety risks associated with working in the Plant, and what 
progress the Department of Energy is making in providing answers to the 
community.
    Back in August, I was very troubled to learn that plutonium-laced 
uranium went through the Portsmouth facility. Just as troubling, the 
Department of Energy was learning about this issue from its own 
reports. The Department has now had several months to investigate, and 
I still have questions. For instance, I am troubled that the Department 
has not responded to a February 15th letter from Senator Voinovich, 
Representative Strickland and myself that asked whether or not the 
Department's oversight team would be able to include information on the 
health and safety risks from weapons system material, if any was ever 
sent to Portsmouth, in its final oversight report. The fact that there 
are still unanswered questions on the material that went through the 
Portsmouth facility may mean that the Department could downplay the 
health and safety risks to past and present workers.
    While I understand that secrecy was necessary throughout the 50's, 
60's, and 70's during the Cold War, I believe that the Department needs 
to move forward and make information known that is important to protect 
worker health and safety. After all, the health and safety of the 
workforce should be one of our top priorities. As I hope to show at a 
field hearing later this year, the Federal Government permitted workers 
at the Portsmouth plant and other nuclear facilities to be at risk of 
exposure. These men and women who made their contribution to this 
country's national defense have suffered not only from the illnesses 
that they contracted as a result of the risk that the government placed 
them in but also from the systems set up to compensate these workers 
for job-related injuries. The Administration has a proposal to 
compensate a very limited number of Department of Energy contract 
workers whose health was put at risk, and while I support that effort, 
I believe that this proposal does not go far enough. It does not 
include the thousands of Portsmouth employees who were exposed to 
radioactive and other hazardous materials without adequate protection, 
and I am committed to ensuring that Ohio workers are treated fairly.
    Again, I appreciate the Chairman's interest in an issue that is of 
great importance to families of the workers in our states. These 
families continue to have questions and they deserve straight answers. 
I hope this hearing will give us an opportunity to do just that.
                               __________

QUESTION FOR THE RECORD SUBMITTED BY SENATOR STEVENS AND RESPONSE FROM 
                              DR. MICHAELS
    Question: Mr. Michaels, in the State of Alaska, the United States 
conducted its largest atomic underground test to date on the island of 
Amchitka in 1971. This was the last of three underground blasts 
conducted on the island beginning in 1965. It is my understanding that 
last year Dr. Seligman made a commitment to a medical screening program 
for workers who had been employed at the Amchitka nuclear weapons site. 
This screening was to be conducted over a period of years. I would like 
to know the current status of that screening process and your plans to 
complete it.

    Answer: In September 1999, an Agreement in Principle (AIP) between 
the State of Alaska and the DOE Nevada Operations Office was executed 
to support a variety of environmental monitoring and remediation 
programs. Included in that AIP was a commitment to support a program of 
medical monitoring for former DOE contractor workers who were employed 
at the Amchitka site. Funding to initiate the program ($237,000 in FY 
00) has been provided to the State of Alaska, and the Department has 
asked for funds to support full program implementation as part of its 
FY 01 budget request.

[GRAPHIC] [TIFF OMITTED] T4250.001

[GRAPHIC] [TIFF OMITTED] T4250.002

[GRAPHIC] [TIFF OMITTED] T4250.003

[GRAPHIC] [TIFF OMITTED] T4250.004

[GRAPHIC] [TIFF OMITTED] T4250.005

[GRAPHIC] [TIFF OMITTED] T4250.006

[GRAPHIC] [TIFF OMITTED] T4250.007

[GRAPHIC] [TIFF OMITTED] T4250.008

[GRAPHIC] [TIFF OMITTED] T4250.009

[GRAPHIC] [TIFF OMITTED] T4250.010

[GRAPHIC] [TIFF OMITTED] T4250.011

[GRAPHIC] [TIFF OMITTED] T4250.012

[GRAPHIC] [TIFF OMITTED] T4250.013

[GRAPHIC] [TIFF OMITTED] T4250.014

[GRAPHIC] [TIFF OMITTED] T4250.015

[GRAPHIC] [TIFF OMITTED] T4250.016

[GRAPHIC] [TIFF OMITTED] T4250.017

[GRAPHIC] [TIFF OMITTED] T4250.018

[GRAPHIC] [TIFF OMITTED] T4250.019

[GRAPHIC] [TIFF OMITTED] T4250.020

[GRAPHIC] [TIFF OMITTED] T4250.021

[GRAPHIC] [TIFF OMITTED] T4250.022

[GRAPHIC] [TIFF OMITTED] T4250.023

[GRAPHIC] [TIFF OMITTED] T4250.024

[GRAPHIC] [TIFF OMITTED] T4250.025

[GRAPHIC] [TIFF OMITTED] T4250.026

[GRAPHIC] [TIFF OMITTED] T4250.027

[GRAPHIC] [TIFF OMITTED] T4250.028

[GRAPHIC] [TIFF OMITTED] T4250.029

[GRAPHIC] [TIFF OMITTED] T4250.030

[GRAPHIC] [TIFF OMITTED] T4250.031

[GRAPHIC] [TIFF OMITTED] T4250.032

[GRAPHIC] [TIFF OMITTED] T4250.033

[GRAPHIC] [TIFF OMITTED] T4250.034

[GRAPHIC] [TIFF OMITTED] T4250.035

[GRAPHIC] [TIFF OMITTED] T4250.036

[GRAPHIC] [TIFF OMITTED] T4250.037

[GRAPHIC] [TIFF OMITTED] T4250.038

[GRAPHIC] [TIFF OMITTED] T4250.039

[GRAPHIC] [TIFF OMITTED] T4250.040

[GRAPHIC] [TIFF OMITTED] T4250.041

[GRAPHIC] [TIFF OMITTED] T4250.042

[GRAPHIC] [TIFF OMITTED] T4250.043

[GRAPHIC] [TIFF OMITTED] T4250.044

[GRAPHIC] [TIFF OMITTED] T4250.045

[GRAPHIC] [TIFF OMITTED] T4250.046

[GRAPHIC] [TIFF OMITTED] T4250.047

[GRAPHIC] [TIFF OMITTED] T4250.048

[GRAPHIC] [TIFF OMITTED] T4250.049

[GRAPHIC] [TIFF OMITTED] T4250.050

[GRAPHIC] [TIFF OMITTED] T4250.051

[GRAPHIC] [TIFF OMITTED] T4250.052

[GRAPHIC] [TIFF OMITTED] T4250.053

[GRAPHIC] [TIFF OMITTED] T4250.054

[GRAPHIC] [TIFF OMITTED] T4250.055

[GRAPHIC] [TIFF OMITTED] T4250.056

[GRAPHIC] [TIFF OMITTED] T4250.057

[GRAPHIC] [TIFF OMITTED] T4250.058

[GRAPHIC] [TIFF OMITTED] T4250.059

[GRAPHIC] [TIFF OMITTED] T4250.060

[GRAPHIC] [TIFF OMITTED] T4250.061

[GRAPHIC] [TIFF OMITTED] T4250.062

[GRAPHIC] [TIFF OMITTED] T4250.063

[GRAPHIC] [TIFF OMITTED] T4250.064

[GRAPHIC] [TIFF OMITTED] T4250.065

[GRAPHIC] [TIFF OMITTED] T4250.066

[GRAPHIC] [TIFF OMITTED] T4250.067

[GRAPHIC] [TIFF OMITTED] T4250.068

[GRAPHIC] [TIFF OMITTED] T4250.069

[GRAPHIC] [TIFF OMITTED] T4250.070

[GRAPHIC] [TIFF OMITTED] T4250.071

[GRAPHIC] [TIFF OMITTED] T4250.072

[GRAPHIC] [TIFF OMITTED] T4250.073

[GRAPHIC] [TIFF OMITTED] T4250.074

[GRAPHIC] [TIFF OMITTED] T4250.075

[GRAPHIC] [TIFF OMITTED] T4250.076

[GRAPHIC] [TIFF OMITTED] T4250.077

[GRAPHIC] [TIFF OMITTED] T4250.078

[GRAPHIC] [TIFF OMITTED] T4250.079

[GRAPHIC] [TIFF OMITTED] T4250.080

[GRAPHIC] [TIFF OMITTED] T4250.081

[GRAPHIC] [TIFF OMITTED] T4250.082

[GRAPHIC] [TIFF OMITTED] T4250.083

[GRAPHIC] [TIFF OMITTED] T4250.084

[GRAPHIC] [TIFF OMITTED] T4250.085

[GRAPHIC] [TIFF OMITTED] T4250.086

[GRAPHIC] [TIFF OMITTED] T4250.087

[GRAPHIC] [TIFF OMITTED] T4250.088

[GRAPHIC] [TIFF OMITTED] T4250.089

[GRAPHIC] [TIFF OMITTED] T4250.090

[GRAPHIC] [TIFF OMITTED] T4250.091

[GRAPHIC] [TIFF OMITTED] T4250.092

[GRAPHIC] [TIFF OMITTED] T4250.093

[GRAPHIC] [TIFF OMITTED] T4250.094

[GRAPHIC] [TIFF OMITTED] T4250.095

[GRAPHIC] [TIFF OMITTED] T4250.096

[GRAPHIC] [TIFF OMITTED] T4250.097

[GRAPHIC] [TIFF OMITTED] T4250.098

[GRAPHIC] [TIFF OMITTED] T4250.099

[GRAPHIC] [TIFF OMITTED] T4250.100

[GRAPHIC] [TIFF OMITTED] T4250.101

[GRAPHIC] [TIFF OMITTED] T4250.102

[GRAPHIC] [TIFF OMITTED] T4250.103

[GRAPHIC] [TIFF OMITTED] T4250.104

[GRAPHIC] [TIFF OMITTED] T4250.105

[GRAPHIC] [TIFF OMITTED] T4250.106

[GRAPHIC] [TIFF OMITTED] T4250.107

[GRAPHIC] [TIFF OMITTED] T4250.108

[GRAPHIC] [TIFF OMITTED] T4250.109

[GRAPHIC] [TIFF OMITTED] T4250.110

[GRAPHIC] [TIFF OMITTED] T4250.111

[GRAPHIC] [TIFF OMITTED] T4250.112

[GRAPHIC] [TIFF OMITTED] T4250.113

[GRAPHIC] [TIFF OMITTED] T4250.114

[GRAPHIC] [TIFF OMITTED] T4250.115

[GRAPHIC] [TIFF OMITTED] T4250.116

[GRAPHIC] [TIFF OMITTED] T4250.117

[GRAPHIC] [TIFF OMITTED] T4250.118

[GRAPHIC] [TIFF OMITTED] T4250.119

[GRAPHIC] [TIFF OMITTED] T4250.120

[GRAPHIC] [TIFF OMITTED] T4250.121

[GRAPHIC] [TIFF OMITTED] T4250.122

[GRAPHIC] [TIFF OMITTED] T4250.123

[GRAPHIC] [TIFF OMITTED] T4250.124

[GRAPHIC] [TIFF OMITTED] T4250.125

[GRAPHIC] [TIFF OMITTED] T4250.126

[GRAPHIC] [TIFF OMITTED] T4250.127

[GRAPHIC] [TIFF OMITTED] T4250.128

[GRAPHIC] [TIFF OMITTED] T4250.129

[GRAPHIC] [TIFF OMITTED] T4250.130

[GRAPHIC] [TIFF OMITTED] T4250.131

[GRAPHIC] [TIFF OMITTED] T4250.132

[GRAPHIC] [TIFF OMITTED] T4250.133

[GRAPHIC] [TIFF OMITTED] T4250.134

[GRAPHIC] [TIFF OMITTED] T4250.135

[GRAPHIC] [TIFF OMITTED] T4250.136

[GRAPHIC] [TIFF OMITTED] T4250.137

[GRAPHIC] [TIFF OMITTED] T4250.138

[GRAPHIC] [TIFF OMITTED] T4250.139

[GRAPHIC] [TIFF OMITTED] T4250.140

[GRAPHIC] [TIFF OMITTED] T4250.141

[GRAPHIC] [TIFF OMITTED] T4250.142

[GRAPHIC] [TIFF OMITTED] T4250.143

[GRAPHIC] [TIFF OMITTED] T4250.144

[GRAPHIC] [TIFF OMITTED] T4250.145

[GRAPHIC] [TIFF OMITTED] T4250.146

[GRAPHIC] [TIFF OMITTED] T4250.147

[GRAPHIC] [TIFF OMITTED] T4250.148

[GRAPHIC] [TIFF OMITTED] T4250.149

[GRAPHIC] [TIFF OMITTED] T4250.150

[GRAPHIC] [TIFF OMITTED] T4250.151

[GRAPHIC] [TIFF OMITTED] T4250.152

[GRAPHIC] [TIFF OMITTED] T4250.153

[GRAPHIC] [TIFF OMITTED] T4250.154

[GRAPHIC] [TIFF OMITTED] T4250.155

[GRAPHIC] [TIFF OMITTED] T4250.156

[GRAPHIC] [TIFF OMITTED] T4250.157

[GRAPHIC] [TIFF OMITTED] T4250.158

[GRAPHIC] [TIFF OMITTED] T4250.159

[GRAPHIC] [TIFF OMITTED] T4250.160

[GRAPHIC] [TIFF OMITTED] T4250.161

[GRAPHIC] [TIFF OMITTED] T4250.162

[GRAPHIC] [TIFF OMITTED] T4250.163

[GRAPHIC] [TIFF OMITTED] T4250.164

[GRAPHIC] [TIFF OMITTED] T4250.165

[GRAPHIC] [TIFF OMITTED] T4250.166

[GRAPHIC] [TIFF OMITTED] T4250.167

[GRAPHIC] [TIFF OMITTED] T4250.168

[GRAPHIC] [TIFF OMITTED] T4250.169

[GRAPHIC] [TIFF OMITTED] T4250.170

[GRAPHIC] [TIFF OMITTED] T4250.171

[GRAPHIC] [TIFF OMITTED] T4250.172

[GRAPHIC] [TIFF OMITTED] T4250.173

[GRAPHIC] [TIFF OMITTED] T4250.174

[GRAPHIC] [TIFF OMITTED] T4250.175

[GRAPHIC] [TIFF OMITTED] T4250.176

[GRAPHIC] [TIFF OMITTED] T4250.177

[GRAPHIC] [TIFF OMITTED] T4250.178

[GRAPHIC] [TIFF OMITTED] T4250.179

[GRAPHIC] [TIFF OMITTED] T4250.180

[GRAPHIC] [TIFF OMITTED] T4250.181

[GRAPHIC] [TIFF OMITTED] T4250.182

[GRAPHIC] [TIFF OMITTED] T4250.183

[GRAPHIC] [TIFF OMITTED] T4250.184

[GRAPHIC] [TIFF OMITTED] T4250.185

[GRAPHIC] [TIFF OMITTED] T4250.186

[GRAPHIC] [TIFF OMITTED] T4250.187

[GRAPHIC] [TIFF OMITTED] T4250.188

[GRAPHIC] [TIFF OMITTED] T4250.189

[GRAPHIC] [TIFF OMITTED] T4250.190

[GRAPHIC] [TIFF OMITTED] T4250.191

[GRAPHIC] [TIFF OMITTED] T4250.192

[GRAPHIC] [TIFF OMITTED] T4250.193

[GRAPHIC] [TIFF OMITTED] T4250.194

[GRAPHIC] [TIFF OMITTED] T4250.195

[GRAPHIC] [TIFF OMITTED] T4250.196

[GRAPHIC] [TIFF OMITTED] T4250.197

[GRAPHIC] [TIFF OMITTED] T4250.198

[GRAPHIC] [TIFF OMITTED] T4250.199

[GRAPHIC] [TIFF OMITTED] T4250.200

[GRAPHIC] [TIFF OMITTED] T4250.201

[GRAPHIC] [TIFF OMITTED] T4250.202

[GRAPHIC] [TIFF OMITTED] T4250.203

[GRAPHIC] [TIFF OMITTED] T4250.204

[GRAPHIC] [TIFF OMITTED] T4250.205

[GRAPHIC] [TIFF OMITTED] T4250.206

[GRAPHIC] [TIFF OMITTED] T4250.207

[GRAPHIC] [TIFF OMITTED] T4250.208

[GRAPHIC] [TIFF OMITTED] T4250.209

[GRAPHIC] [TIFF OMITTED] T4250.210

[GRAPHIC] [TIFF OMITTED] T4250.211

[GRAPHIC] [TIFF OMITTED] T4250.212

[GRAPHIC] [TIFF OMITTED] T4250.213

[GRAPHIC] [TIFF OMITTED] T4250.214

[GRAPHIC] [TIFF OMITTED] T4250.215

[GRAPHIC] [TIFF OMITTED] T4250.216

[GRAPHIC] [TIFF OMITTED] T4250.217

[GRAPHIC] [TIFF OMITTED] T4250.218

[GRAPHIC] [TIFF OMITTED] T4250.219

[GRAPHIC] [TIFF OMITTED] T4250.220

[GRAPHIC] [TIFF OMITTED] T4250.221

[GRAPHIC] [TIFF OMITTED] T4250.222

[GRAPHIC] [TIFF OMITTED] T4250.223

[GRAPHIC] [TIFF OMITTED] T4250.224

[GRAPHIC] [TIFF OMITTED] T4250.225

[GRAPHIC] [TIFF OMITTED] T4250.226

[GRAPHIC] [TIFF OMITTED] T4250.227

[GRAPHIC] [TIFF OMITTED] T4250.228

[GRAPHIC] [TIFF OMITTED] T4250.229

[GRAPHIC] [TIFF OMITTED] T4250.230

[GRAPHIC] [TIFF OMITTED] T4250.231

[GRAPHIC] [TIFF OMITTED] T4250.232

[GRAPHIC] [TIFF OMITTED] T4250.233

[GRAPHIC] [TIFF OMITTED] T4250.234

[GRAPHIC] [TIFF OMITTED] T4250.235

[GRAPHIC] [TIFF OMITTED] T4250.236

[GRAPHIC] [TIFF OMITTED] T4250.237

[GRAPHIC] [TIFF OMITTED] T4250.238

[GRAPHIC] [TIFF OMITTED] T4250.239

[GRAPHIC] [TIFF OMITTED] T4250.240

[GRAPHIC] [TIFF OMITTED] T4250.241

[GRAPHIC] [TIFF OMITTED] T4250.242

[GRAPHIC] [TIFF OMITTED] T4250.243

[GRAPHIC] [TIFF OMITTED] T4250.244

[GRAPHIC] [TIFF OMITTED] T4250.245

[GRAPHIC] [TIFF OMITTED] T4250.246

[GRAPHIC] [TIFF OMITTED] T4250.247

[GRAPHIC] [TIFF OMITTED] T4250.248

[GRAPHIC] [TIFF OMITTED] T4250.249

[GRAPHIC] [TIFF OMITTED] T4250.250

[GRAPHIC] [TIFF OMITTED] T4250.251

[GRAPHIC] [TIFF OMITTED] T4250.252

[GRAPHIC] [TIFF OMITTED] T4250.253

[GRAPHIC] [TIFF OMITTED] T4250.254

[GRAPHIC] [TIFF OMITTED] T4250.255

[GRAPHIC] [TIFF OMITTED] T4250.256

[GRAPHIC] [TIFF OMITTED] T4250.257

[GRAPHIC] [TIFF OMITTED] T4250.258

[GRAPHIC] [TIFF OMITTED] T4250.259

[GRAPHIC] [TIFF OMITTED] T4250.260

[GRAPHIC] [TIFF OMITTED] T4250.261

[GRAPHIC] [TIFF OMITTED] T4250.262

[GRAPHIC] [TIFF OMITTED] T4250.263

[GRAPHIC] [TIFF OMITTED] T4250.264

[GRAPHIC] [TIFF OMITTED] T4250.265

[GRAPHIC] [TIFF OMITTED] T4250.266

[GRAPHIC] [TIFF OMITTED] T4250.267

[GRAPHIC] [TIFF OMITTED] T4250.268

[GRAPHIC] [TIFF OMITTED] T4250.269

[GRAPHIC] [TIFF OMITTED] T4250.270

[GRAPHIC] [TIFF OMITTED] T4250.271

[GRAPHIC] [TIFF OMITTED] T4250.272

[GRAPHIC] [TIFF OMITTED] T4250.273

[GRAPHIC] [TIFF OMITTED] T4250.274

[GRAPHIC] [TIFF OMITTED] T4250.275

[GRAPHIC] [TIFF OMITTED] T4250.276

[GRAPHIC] [TIFF OMITTED] T4250.277

[GRAPHIC] [TIFF OMITTED] T4250.278

[GRAPHIC] [TIFF OMITTED] T4250.279

[GRAPHIC] [TIFF OMITTED] T4250.280

[GRAPHIC] [TIFF OMITTED] T4250.281

[GRAPHIC] [TIFF OMITTED] T4250.282

[GRAPHIC] [TIFF OMITTED] T4250.283

[GRAPHIC] [TIFF OMITTED] T4250.284

[GRAPHIC] [TIFF OMITTED] T4250.285

[GRAPHIC] [TIFF OMITTED] T4250.286

[GRAPHIC] [TIFF OMITTED] T4250.287

[GRAPHIC] [TIFF OMITTED] T4250.288

[GRAPHIC] [TIFF OMITTED] T4250.289

[GRAPHIC] [TIFF OMITTED] T4250.290

[GRAPHIC] [TIFF OMITTED] T4250.291

[GRAPHIC] [TIFF OMITTED] T4250.292

[GRAPHIC] [TIFF OMITTED] T4250.293

[GRAPHIC] [TIFF OMITTED] T4250.294

[GRAPHIC] [TIFF OMITTED] T4250.295

[GRAPHIC] [TIFF OMITTED] T4250.296

[GRAPHIC] [TIFF OMITTED] T4250.297

[GRAPHIC] [TIFF OMITTED] T4250.298

[GRAPHIC] [TIFF OMITTED] T4250.299

[GRAPHIC] [TIFF OMITTED] T4250.300

[GRAPHIC] [TIFF OMITTED] T4250.301

[GRAPHIC] [TIFF OMITTED] T4250.302

[GRAPHIC] [TIFF OMITTED] T4250.303

[GRAPHIC] [TIFF OMITTED] T4250.304

[GRAPHIC] [TIFF OMITTED] T4250.305

[GRAPHIC] [TIFF OMITTED] T4250.306

[GRAPHIC] [TIFF OMITTED] T4250.307

[GRAPHIC] [TIFF OMITTED] T4250.308

[GRAPHIC] [TIFF OMITTED] T4250.309

[GRAPHIC] [TIFF OMITTED] T4250.310

[GRAPHIC] [TIFF OMITTED] T4250.311

[GRAPHIC] [TIFF OMITTED] T4250.312

[GRAPHIC] [TIFF OMITTED] T4250.313

[GRAPHIC] [TIFF OMITTED] T4250.314

[GRAPHIC] [TIFF OMITTED] T4250.315

[GRAPHIC] [TIFF OMITTED] T4250.316

[GRAPHIC] [TIFF OMITTED] T4250.317

[GRAPHIC] [TIFF OMITTED] T4250.318

[GRAPHIC] [TIFF OMITTED] T4250.319

[GRAPHIC] [TIFF OMITTED] T4250.320

[GRAPHIC] [TIFF OMITTED] T4250.321

[GRAPHIC] [TIFF OMITTED] T4250.322

[GRAPHIC] [TIFF OMITTED] T4250.323

[GRAPHIC] [TIFF OMITTED] T4250.324

[GRAPHIC] [TIFF OMITTED] T4250.325

[GRAPHIC] [TIFF OMITTED] T4250.326

[GRAPHIC] [TIFF OMITTED] T4250.327

[GRAPHIC] [TIFF OMITTED] T4250.328

[GRAPHIC] [TIFF OMITTED] T4250.329

[GRAPHIC] [TIFF OMITTED] T4250.330

[GRAPHIC] [TIFF OMITTED] T4250.331

[GRAPHIC] [TIFF OMITTED] T4250.332

[GRAPHIC] [TIFF OMITTED] T4250.333

[GRAPHIC] [TIFF OMITTED] T4250.334

[GRAPHIC] [TIFF OMITTED] T4250.335

[GRAPHIC] [TIFF OMITTED] T4250.336

[GRAPHIC] [TIFF OMITTED] T4250.337

[GRAPHIC] [TIFF OMITTED] T4250.338

[GRAPHIC] [TIFF OMITTED] T4250.339

[GRAPHIC] [TIFF OMITTED] T4250.340

[GRAPHIC] [TIFF OMITTED] T4250.341

[GRAPHIC] [TIFF OMITTED] T4250.342

[GRAPHIC] [TIFF OMITTED] T4250.343

[GRAPHIC] [TIFF OMITTED] T4250.344

[GRAPHIC] [TIFF OMITTED] T4250.345

[GRAPHIC] [TIFF OMITTED] T4250.346

[GRAPHIC] [TIFF OMITTED] T4250.347

[GRAPHIC] [TIFF OMITTED] T4250.348

[GRAPHIC] [TIFF OMITTED] T4250.349

[GRAPHIC] [TIFF OMITTED] T4250.350

[GRAPHIC] [TIFF OMITTED] T4250.351

[GRAPHIC] [TIFF OMITTED] T4250.352

[GRAPHIC] [TIFF OMITTED] T4250.353

[GRAPHIC] [TIFF OMITTED] T4250.354

[GRAPHIC] [TIFF OMITTED] T4250.355

[GRAPHIC] [TIFF OMITTED] T4250.356

[GRAPHIC] [TIFF OMITTED] T4250.357

[GRAPHIC] [TIFF OMITTED] T4250.358

[GRAPHIC] [TIFF OMITTED] T4250.359

[GRAPHIC] [TIFF OMITTED] T4250.360

[GRAPHIC] [TIFF OMITTED] T4250.361

[GRAPHIC] [TIFF OMITTED] T4250.362

[GRAPHIC] [TIFF OMITTED] T4250.363

[GRAPHIC] [TIFF OMITTED] T4250.364

[GRAPHIC] [TIFF OMITTED] T4250.365

[GRAPHIC] [TIFF OMITTED] T4250.366

[GRAPHIC] [TIFF OMITTED] T4250.367

[GRAPHIC] [TIFF OMITTED] T4250.368

[GRAPHIC] [TIFF OMITTED] T4250.369

[GRAPHIC] [TIFF OMITTED] T4250.370

[GRAPHIC] [TIFF OMITTED] T4250.371

[GRAPHIC] [TIFF OMITTED] T4250.372

[GRAPHIC] [TIFF OMITTED] T4250.373

[GRAPHIC] [TIFF OMITTED] T4250.374

[GRAPHIC] [TIFF OMITTED] T4250.375

[GRAPHIC] [TIFF OMITTED] T4250.376

[GRAPHIC] [TIFF OMITTED] T4250.377

[GRAPHIC] [TIFF OMITTED] T4250.378

[GRAPHIC] [TIFF OMITTED] T4250.379

[GRAPHIC] [TIFF OMITTED] T4250.380

[GRAPHIC] [TIFF OMITTED] T4250.381

[GRAPHIC] [TIFF OMITTED] T4250.382

[GRAPHIC] [TIFF OMITTED] T4250.383

[GRAPHIC] [TIFF OMITTED] T4250.384

[GRAPHIC] [TIFF OMITTED] T4250.385

[GRAPHIC] [TIFF OMITTED] T4250.386

[GRAPHIC] [TIFF OMITTED] T4250.387

[GRAPHIC] [TIFF OMITTED] T4250.388

[GRAPHIC] [TIFF OMITTED] T4250.389

[GRAPHIC] [TIFF OMITTED] T4250.390

[GRAPHIC] [TIFF OMITTED] T4250.391

[GRAPHIC] [TIFF OMITTED] T4250.392

[GRAPHIC] [TIFF OMITTED] T4250.393

[GRAPHIC] [TIFF OMITTED] T4250.394

[GRAPHIC] [TIFF OMITTED] T4250.395

[GRAPHIC] [TIFF OMITTED] T4250.396

[GRAPHIC] [TIFF OMITTED] T4250.397

[GRAPHIC] [TIFF OMITTED] T4250.398

[GRAPHIC] [TIFF OMITTED] T4250.399

[GRAPHIC] [TIFF OMITTED] T4250.400

[GRAPHIC] [TIFF OMITTED] T4250.401

[GRAPHIC] [TIFF OMITTED] T4250.402

[GRAPHIC] [TIFF OMITTED] T4250.403

[GRAPHIC] [TIFF OMITTED] T4250.404

[GRAPHIC] [TIFF OMITTED] T4250.405

[GRAPHIC] [TIFF OMITTED] T4250.406

                                   <all>

</pre></body></html>
